<html>
<title> - ASSESSING ANTHRAX DETECTION METHODS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                  ASSESSING ANTHRAX DETECTION METHODS

=======================================================================





                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                  EMERGING THREATS, AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 5, 2005

                               __________

                           Serial No. 109-57

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform

                               ______


                 U.S. GOVERNMENT PRINTING OFFICE

23-142 PDF             WASHINGTON : 2005
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001














                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
GINNY BROWN-WAITE, Florida           C.A. DUTCH RUPPERSBERGER, Maryland
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
KENNY MARCHANT, Texas                ELEANOR HOLMES NORTON, District of 
LYNN A. WESTMORELAND, Georgia            Columbia
PATRICK T. McHENRY, North Carolina               ------
CHARLES W. DENT, Pennsylvania        BERNARD SANDERS, Vermont 
VIRGINIA FOXX, North Carolina            (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

Subcommittee on National Security, Emerging Threats, and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
KENNY MARCHANT, Texas                DENNIS J. KUCINICH, Ohio
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         BERNARD SANDERS, Vermont
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           CHRIS VAN HOLLEN, Maryland
TODD RUSSELL PLATTS, Pennsylvania    LINDA T. SANCHEZ, California
JOHN J. DUNCAN, Jr., Tennessee       C.A. DUTCH RUPPERSBERGER, Maryland
MICHAEL R. TURNER, Ohio              STEPHEN F. LYNCH, Massachusetts
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
              Kristine McElroy, Professional Staff Member
                        Robert A. Briggs, Clerk
             Andrew Su, Minority Professional Staff Member






















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 5, 2005....................................     1
Statement of:
    Burrus, William, president, American Postal Workers Union, 
      AFL-CIO; Linda D. Stetzenbach, director, Microbiology 
      Division, Harry Reid Center for Environmental Studies, 
      University of Nevada, Las Vegas; James H. Schwartz, chief, 
      Arlington County Fire Department; Michael P. Neuhard, 
      chief, Fairfax County Fire and Rescue Department; Philip 
      Schaenman, president, Tridata Division of System Planning 
      Corp.; and John Jester, Director, Pentagon Force Protection 
      Agency, Department of Defense..............................   109
        Burrus, William..........................................   109
        Jester, John.............................................   164
        Neuhard, Michael P.......................................   148
        Schaenman, Philip........................................   155
        Schwartz, James H........................................   140
        Stetzenbach, Linda D.....................................   117
    Rhodes, Keith, Chief Technologist, Government Accountability 
      Office, accompanied by Sushil Sharma, Associate Director 
      for Science, Centers for Disease Control and Prevention; 
      Dr. Tanja Popovic, Associate Director for Science, Centers 
      for Disease and Prevention, accompanied by Maxim Kiefer, 
      Assistant Director for Emergency Preparedness and Response, 
      National Institute for Occupational Safety and Health, 
      Centers for Disease Control and Prevention; Dr. Klaus 
      Schafer, Deputy Assistant to the Secretary of Defense for 
      Chemical and Biological Defense, Department of Defense; 
      Dana Tulis, Deputy Director for the Office of Emergency 
      Management, Environmental Protection Agency, accompanied by 
      Mark Durno, on-Scene Coordinator [OSC] EPA Region 5, 
      Environmental Protection Agency; Thomas G. Day, vice 
      president of engineering, U.S. Postal Service; and Dr. 
      Katherine Kelley, director, Department of Public Health 
      Laboratory.................................................    12
        Day, Thomas G............................................    73
        Kelley, Dr. Katherine....................................    80
        Popovic, Dr. Tanja.......................................    36
        Rhodes, Keith............................................    12
        Schafer, Dr. Klaus.......................................    55
        Tulis, Dana..............................................    62
Letters, statements, etc., submitted for the record by:
    Burrus, William, president, American Postal Workers Union, 
      AFL-CIO, prepared statement of.............................   112
    Davis, Hon. Tom, a Representative in Congress from the State 
      of Virginia, prepared statement of.........................     8
    Day, Thomas G., vice president of engineering, U.S. Postal 
      Service, prepared statement of.............................    76
    Jester, John, Director, Pentagon Force Protection Agency, 
      Department of Defense, prepared statement of...............   167
    Kelley, Dr. Katherine, director, Department of Public Health 
      Laboratory, prepared statement of..........................    82
    Neuhard, Michael P., chief, Fairfax County Fire and Rescue 
      Department, prepared statement of..........................   150
    Popovic, Dr. Tanja, Associate Director for Science, Centers 
      for Disease and Prevention, prepared statement of..........    38
    Porter, Hon. Jon C., a Representative in Congress from the 
      State of Nevada, prepared statement of.....................    61
    Rhodes, Keith, Chief Technologist, Government Accountability 
      Office, prepared statement of..............................    15
    Schaenman, Philip, president, Tridata Division of System 
      Planning Corp., prepared statement of......................   157
    Schafer, Dr. Klaus, Deputy Assistant to the Secretary of 
      Defense for Chemical and Biological Defense, Department of 
      Defense, prepared statement of.............................    57
    Schwartz, James H., chief, Arlington County Fire Department, 
      prepared statement of......................................   143
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut:
        Letter dated April 1, 2005...............................   187
        Prepared statement of....................................     3
    Stetzenbach, Linda D., director, Microbiology Division, Harry 
      Reid Center for Environmental Studies, University of 
      Nevada, Las Vegas, prepared statement of...................   120
    Tulis, Dana, Deputy Director for the Office of Emergency 
      Management, Environmental Protection Agency, prepared 
      statement of...............................................    65
























                  ASSESSING ANTHRAX DETECTION METHODS

                              ----------                              


                         TUESDAY, APRIL 5, 2005

                  House of Representatives,
       Subcommittee on National Security, Emerging 
              Threats, and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:07 p.m., in 
room 2154, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Porter, Tom Davis (ex 
officio), and Kucinich.
    Also present: Representative Norton.
    Staff present: Lawrence Halloran, staff director and 
counsel; R. Nicholas Palarino, senior policy adviser; Kristine 
McElroy, professional staff member; Robert A. Briggs, clerk; 
Andrew Su and Denise Wilson, minority professional staff 
members; Earley Green, minority chief clerk; and Jean Gosa, 
minority assistant clerk.
    Mr. Shays. The Committee on Government Reform, Subcommittee 
on National Security, Emerging Threats, and International 
Relations hearing entitled, ``Assessing Anthrax Detection 
Methods,'' is called to order.
    Is this building contaminated? Almost 4 years after mail-
borne anthrax attacks killed five Americans, infected 22 others 
and polluted postal facilities, the answer to that urgent ``yes 
or no'' question remains a protracted cacophony of ``maybes.'' 
Recent detections in local Department of Defense [DOD], mail 
facilities produced painful reminders of persistent gaps in 
both the science of biological detection and the art of 
communicating test results, and risks, to the public.
    Today, with those recent events as context and cautionary 
tale, we assess the extent of progress by Federal agencies 
toward standardizing and validating sampling, testing and 
analysis protocols for Bacillus anthracis.
    Each incident of suspected or actual biological 
contamination will be unique. Every situation presents a 
daunting array of variables and unknowns. But inherent 
complexity is no excuse to deter needed research or ignore 
lessons learned in favor of an ad hoc, uncoordinated and 
scientifically unsound response. All these events pose the same 
question: Is it anthrax? Is it still there? Only strong science 
and vigilant integration of that knowledge into a coordinated 
response will conquer the unknowns and limit the variables that 
still plague anthrax detections.
    Last year we asked the Government Accountability Office 
[GAO], to examine anthrax detection strategies used by the U.S. 
Postal Service [USPS], and other Federal agencies. In a report 
released today, GAO finds that despite some scattered efforts, 
the multi-step anthrax detection and confirmation process still 
has not been validated; that is, scientifically tested to 
measure its sensitivity, reliability and limitations.
    As a result, those responsible for assessing or mitigating 
anthrax contamination have scant information on which to base 
selection of sample techniques, specimen storage modes or 
testing methodologies appropriate to the incident at hand. Nor 
can first responders, potential victims, or the public have the 
degree of confidence they need in positive or negative results 
that only slowly emerge from this loosely forged chain of 
custody.
    Different anthrax detection technologies emitting different 
measures of ``positive'' and ``negative'' can trigger different 
responses by local, county, regional, State and Federal 
officials. The public often hears confusing and sometimes 
contradictory assessments of the anthrax threat. Law 
enforcement and public health officials on the scene don't get 
timely, actionable information on the level of risk.
    In effect, workers and the public are expected to serve as 
human detectors, as the absence of illness is used to prove the 
absence of contamination. But anthrax detection and remediation 
should be an environmental, not just an epidemiological 
exercise. Proven tenets of environmental science and industrial 
hygiene can be applied to determine with measurable accuracy 
when a building is clean.
    Without validated detection protocols, we risk terrorizing 
ourselves with preventable false positives that subject people 
to needless countermeasures and, perhaps more dangerously, we 
invite false negatives that breed an equally false sense of 
security.
    GAO recommends that Federal agencies refine their approach 
to anthrax detection, build on lessons learned and incorporate 
probability-based sampling techniques into a more coordinated 
response. Although these recommendations are directed primarily 
to the Department of Homeland Security [DHS], it is still not 
clear who is in charge of this process as evidenced by our 
crowded witness panels this afternoon.
    But the Department of Health and Human Services, 
specifically the Centers for Disease Control and Prevention, 
and the Environmental Protection Agency are designated as lead 
agencies for anthrax detection and remediation. Their testimony 
today and that of all our witnesses will help us understand how 
this vital public safety and public health process can be 
improved. DHS, fully engaged today in the TOPOFF III National 
Counterterrorism Exercise, will testify at a subsequent 
hearing.
    [The prepared statement of Hon. Christopher Shays follows:]

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Shays. At this time, with the lady's permission, I will 
go to the chairman.
    Ms. Norton. Certainly, sir.
    Mr. Shays. Thank you.
    Chairman Tom Davis. Mr. Shays, thank you very much.
    I still remember the call I got from Fairfax Inova Hospital 
in November 2001 telling me that a postal worker from northern 
Virginia had the symptoms of anthrax. This individual, Leroy 
Richmond, would ultimately survive inhalation anthrax, but we 
all remember the five individuals who did not.
    Three and a half years have passed since the anthrax 
attacks on Capitol Hill and millions of dollars have been spent 
to improve our ability to detect and respond to future anthrax 
attacks. Yet as both the GAO report released today, and last 
month's anthrax incident demonstrate, we are still unable to 
perform those core responsibilities as we should.
    In fact, one of my greatest concerns since the United 
States refocused on homeland security in 2001 has been that we 
would throw money at innumerable problems to little or no 
benefit--much sound and fury, signifying nothing. Things are 
not quite that extreme, but we still struggle to accomplish 
fundamental tasks, and we must therefore continue to provide 
close oversight of Federal efforts to better protect our 
citizens.
    As we continue to see, there is little room for error in 
responding to a real or perceived biological attack. If the 
situation is not effectively managed, public confidence quickly 
erodes.
    In reviewing the testimony today, it is clear that our 
ability to detect the presence of anthrax leaves much to be 
desired. Our response capabilities hinge on our ability to 
determine whether or not anthrax is present. Proper scientific 
rigor must be applied to this issue so that all facets of 
anthrax sampling, strategy development, collection, 
transportation, extraction and analysis, ensure the highest 
probability of success.
    Last month's anthrax incidents at the Pentagon and Bailey's 
Crossroads provide an excellent opportunity to assess our 
ability to respond to a biological attack. While I am pleased 
the Federal, State and local entities involved conducted, or 
are conducting after-action reports, questions have also 
arisen. Specifically, I am curious why the Department of 
Defense has developed both detection and response protocols 
that differ from civilian agencies. I am also curious why DOD 
did not coordinate medical decisions with the appropriate State 
and local public health officials.
    At first glance it seems that a unified approach across all 
Federal agencies would be optimal. Is there an operational 
reason for DOD to be different? If so, what efforts have been 
made to facilitate interaction with civilian Federal agencies, 
States and localities?
    From my review of last month's events, it seems that even 
DOD's use of different terminology created much unnecessary 
confusion, especially when conference calls were the primary 
means of interagency communication. If our communication 
methods result in a telephonic Tower of Babel, we are not doing 
our jobs.
    I appreciate the work already commissioned by Virginia, 
Maryland and the District of Columbia to examine last month's 
events from the State and local perspective. I eagerly await 
the Federal component. This cannot be another scenario where 
lots of people agree that we need to sit down and talk about X 
and Y. I want to see actions and want to see results.
    In closing, I want to thank Chairman Shays for this timely 
hearing and I look forward to the testimony of our witnesses.
    [The prepared statement of Hon. Tom Davis follows:]



<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Shays. I thank the chairman. At this time the Chair 
would also like to recognize another member from the area of 
D.C., obviously in D.C., who also has vital concerns about this 
issue.
    Ms. Norton.
    Ms. Norton. Well, first, Mr. Chairman, let me thank you for 
your permission to sit in on this hearing. I am on the full 
committee, not on your subcommittee, and I appreciate your 
understanding the special interest that I have in this issue in 
particular.
    I am not surprised, Mr. Chairman, for your foresight, 
because foresight is what it is, for calling these hearings, 
and members in this region will think that this hearing is in 
response to the frightening false alarms that recently occurred 
here, but this hearing and the GAO report where they were 
already when that took place makes the hearing especially 
timely.
    Mr. Chairman, I was so concerned, even before we knew that 
these were false alarms at the Pentagon facilities, that I 
immediately wrote to Chairman Davis to ask for a hearing, if 
only to settle the region down. About the last thing this 
region needs to go through is another sense that we have not 
gotten control of contamination of the mail, not after we have 
lost two good men, three others are seriously injured. False 
alarm or real alarm, the effect on particularly postal 
employees is virtually the same, and here of course including 
having to take Cipro.
    Mr. Chairman, when I looked at the GAO report, I was 
absolutely stunned. I could only think what year is this, are 
we back in 2001, because if you look at that report I think it 
is fair to say that nothing got fixed. It looks as if 
everything went wrong--detection, testing, coordination, 
communication. The only thing that ultimately went right is 
somebody understood that you ought to at some point tell 
employees and begin taking steps. Of course, those steps turned 
out to be unnecessary and we are 4 years after September 11th.
    Mr. Chairman, I was particularly concerned that the 
Pentagon had done its own testing in a non-CDC-certified lab. 
What in the world is the Pentagon doing farming out this 
important mission to a lab which hasn't gone through 
certification by the CDC when there are more than 100 such labs 
all around the country that have--I couldn't help but think who 
does the Pentagon think they are? Do they think they are not 
bound by the rules that came out after the anthrax scare here?
    That was extremely disconcerting to me. I cannot know 
whether or not another lab would have done better. I do know 
that workers and people who live in this region and in the 
United States have a right to expect after the anthrax attacks 
that occurred here and around the country, if I may remind you, 
have resulted in our taking care of the basics. The basics 
weren't attended to here and, Mr. Chairman, you were on the 
case as if clairvoyant with the GAO report and with this 
hearing, and I can't thank you enough for that.
    Mr. Shays. I thank the gentlelady and am very grateful that 
she is here to participate fully in this hearing.
    Let me say before recognizing our witnesses and swearing 
them in, that we have six witnesses in this panel and I think 
six in the next. So we are going to stick to the 5-minute rule. 
When the 5 minutes are up, I will ask you to wrap up if you 
haven't wrapped up, just so we can get to the questions, and we 
will have a number of questions to ask.
    So at this time the Chair would just note for the record 
that we have Keith Rhodes, Chief Technologist, Center for 
Technology and Engineering Department, Applied Research and 
Methods, U.S. Government Accountability Office, accompanied by 
Dr. Sushil Sharma, just behind him. So, Doctor, if you would 
stand when we swear and others as well; Dr. Tanja Popovic, 
Associate Director for Science, Centers for Disease Control and 
Prevention, Department of Health and Human Services, 
accompanied by Maxim Kiefer; Dr. Klaus Schafer, Deputy 
Assistant to the Secretary of Defense for Chemical and 
Biological Defense; Dana Tulis, Deputy Director for the Office 
of Emergency Management, Environmental Protection Agency, 
accompanied by Mark Durno; Thomas G. Day, vice president of 
engineering, U.S. Postal Service; as well as Dr. Katherine 
Kelley, director, Association of Public Health Laboratories.
    So if you would stand, if everyone else who I called will 
stand or anyone who might be providing some testimony would 
stand as well, if there is anyone accompanying you who may 
participate; if you would all stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Shays. I would note for the record that all our 
witnesses and those who might testify have responded in the 
affirmative, and we will start with you, Mr. Rhodes. Thank you 
very much for being here. I thank all of you for being here and 
thank you all for your service to our country, whether it's 
directly in the government or in the case of the Associated 
Public Health Laboratories for your work as well. Thank you.

  STATEMENTS OF KEITH RHODES, CHIEF TECHNOLOGIST, GOVERNMENT 
ACCOUNTABILITY OFFICE, ACCOMPANIED BY SUSHIL SHARMA, ASSOCIATE 
     DIRECTOR FOR SCIENCE, CENTERS FOR DISEASE CONTROL AND 
PREVENTION; DR. TANJA POPOVIC, ASSOCIATE DIRECTOR FOR SCIENCE, 
   CENTERS FOR DISEASE AND PREVENTION, ACCOMPANIED BY MAXIM 
   KIEFER, ASSISTANT DIRECTOR FOR EMERGENCY PREPAREDNESS AND 
   RESPONSE, NATIONAL INSTITUTE FOR OCCUPATIONAL SAFETY AND 
 HEALTH, CENTERS FOR DISEASE CONTROL AND PREVENTION; DR. KLAUS 
   SCHAFER, DEPUTY ASSISTANT TO THE SECRETARY OF DEFENSE FOR 
 CHEMICAL AND BIOLOGICAL DEFENSE, DEPARTMENT OF DEFENSE; DANA 
TULIS, DEPUTY DIRECTOR FOR THE OFFICE OF EMERGENCY MANAGEMENT, 
ENVIRONMENTAL PROTECTION AGENCY, ACCOMPANIED BY MARK DURNO, ON-
SCENE COORDINATOR [OSC] EPA REGION 5, ENVIRONMENTAL PROTECTION 
  AGENCY; THOMAS G. DAY, VICE PRESIDENT OF ENGINEERING, U.S. 
POSTAL SERVICE; AND DR. KATHERINE KELLEY, DIRECTOR, DEPARTMENT 
                  OF PUBLIC HEALTH LABORATORY

                   STATEMENT OF KEITH RHODES

    Mr. Rhodes. Thank you, Mr. Chairman. Mr. Chairman, members 
of the subcommittee, thank you for asking us to participate in 
this hearing by presenting our assessment of the Federal 
activities conducted to detect anthrax in postal facilities in 
the fall of 2001.
    Mr. Chairman, the bottom line of our findings is the 
following: Since there were and largely still are no validated 
methods for sample collection and analysis, agencies cannot 
know with any level of statistical confidence whether or not a 
building is contaminated. In short, agencies cannot know when a 
negative result means negative and when a positive result means 
positive.
    I will now take a moment to discuss two of our major 
findings about Federal agencies' sampling strategies and lack 
of validation. Our first finding is that the agencies primarily 
used a targeted strategy; they collected samples from specific 
areas considered more likely to be contaminated based on their 
judgments.
    However, such judgments can only be effective when the 
source of contamination is definitive and the sample collection 
and analytical methods are validated. In addition, these 
judgments are based on certain assumptions.
    For example, contamination levels at the highest public 
health concern can usually be detected using a variety of 
available methods, despite their limitations. However, these 
assumptions may not always apply. For example, there may be 
limitations in the available information that restrict an 
agency's ability to reliably identify target locations. And 
when all results are negative, additional testing will need to 
be done, as was the case in Wallingford, CT.
    This in turn will result in the loss of critical time 
needed for public health intervention. A major weakness of 
targeted sampling approach is that in the case of a negative 
result, the basic question is this building contaminated will 
remain unanswered with a given level of confidence.
    Without probability sampling, inferences about a facility's 
status; that is, whether it was contaminated, could not be 
reliably made based on negative results. Probability sampling 
would address not only the immediate public health needs but 
also the wider environmental contamination and cleanup issues.
    In the future if the agencies decide to use a targeted 
sampling strategy, they must recognize that they could lose a 
number of days if test results are negative. Agencies would 
then have to collect and analyze additional samples, resulting 
in a loss of critical time for public health interventions.
    As you know, Mr. Chairman, this was the case at the 
Wallingford postal facility in the fall of 2001. About 3 weeks 
elapsed between the time the first sampling took place and the 
results of the fourth testing which revealed positive results. 
Furthermore, about 5 months elapsed between the time of the 
first sampling event and the time anthrax was found in the 
Wallingford facility's high bay area, the rafters above the 
machine that was contaminated.
    Our second finding finds that some collection and 
analytical methods used by Federal agencies were not validated 
for anthrax. This means that the agencies had no reliable basis 
on which to choose one method over another and there can be no 
statistical confidence in the negative results. Validation as 
it is generally understood is a formal empirical process 
involving two steps: One, development of standard protocols 
and, two, evaluation of those protocols in different labs and 
on several occasions. Reproducibility of the results by 
different labs and scientists is an essential component of this 
evaluation process.
    Validating a process is important because operational and 
health-related decisions are made on the basis of testing 
results generated by that process. In addition, validation 
would offer assurance that the results of using a particular 
method are robust enough to be reproduced regardless of which 
agency, contractor or laboratory is involved.
    Thus, agencies and the public could be reasonably confident 
that any test results generated by that method were reliable 
and, in particular, that any negative results would mean that a 
sample was free from contamination or within the method's 
limits of detection.
    Mr. Chairman, while agencies have taken some actions toward 
validation, these actions do not address the issue of 
validating all activities related to sampling. Since the fall 
of 2001, agencies have begun studies that may contribute to the 
validation process. Nonetheless, these studies appear to be 
limited in addressing only some aspect of an individual 
activity rather than the entire process.
    Finally, the agencies have not made appropriate and 
prioritized investments to develop and validate all activities 
related to sampling for anthrax and other biothreat agents. 
Accordingly, we made several recommendations to the Secretary 
of Homeland Security.
    The Secretary should: One, ensure the appropriate 
validation studies of the overall process of sampling 
activities, including the methods, are conducted; two, ensure 
that a definition of validation is developed and agreed upon; 
three, see that appropriate investments are made in empirical 
studies to develop probability-based sampling strategies that 
take into account the complexities of indoor environments; and, 
four, ensure that appropriate prioritized investments are made 
for all biothreat agents.
    Mr. Chairman, this concludes my statement. I will be happy 
to answer any questions you or members of the subcommittee may 
have.
    [Note.--The GAO report entitled, ``Anthrax Detection, 
Agencies Need to Validate Sampling Activities in Order to 
Increase Confidence in Negative Results,'' may be found in 
subcommittee files.]
    [The prepared statement of Mr. Rhodes follows:]



<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>



    
    Mr. Shays. I didn't interrupt you because you left your 
most important part to the end and I couldn't interrupt you.
    Mr. Rhodes. Thank you very much, Mr. Chairman.
    Mr. Shays. You are welcome.
    Dr. Popovic.
    Dr. Popovic. Thank you very much.
    Dr. Shays. Is your mic on, Doctor?
    Dr. Popovic. It is now.
    Mr. Shays. Good.

                 STATEMENT OF DR. TANJA POPOVIC

    Dr. Popovic. Good afternoon, Chairman Shays and members of 
the subcommittee. I am Dr. Tanja Popovic, Acting Associate 
Director for Science for Disease Control and Prevention, and I 
am accompanied today by Mr. Max Kiefer of CDC's National 
Institute for Occupational Safety and Health.
    On behalf of CDC, I am pleased to describe CDC's views on 
detection of anthrax, the role of the laboratory response 
network and our ongoing activities to fully establish the 
scientific validity of environmental testing methods.
    During the 2001 anthrax attacks, CDC teams conducted a 
number of outbreak investigations in Florida, New York City, 
New Jersey, Washington, DC, and Connecticut. An environmental 
sampling was a very important component of these 
investigations.
    CDC used targeted or epidemiologically driven sampling 
strategies as the most straightforward approach to initial 
assessment that allowed for rapid determination of 
contamination and quick public health decisions. Targeted 
sampling proved to be rapid, efficient and successful and will 
continue to be our primary strategy in outbreak investigations.
    Environmental sampling approaches have substantially 
expanded since that time, and now they include early warning 
systems. BioWatch is an environmental air sampling surveillance 
initiated by the Department of Homeland Security with CDC, 
Department of Justice, EPA and National Laboratories as key 
partners. Over 500,000 analyses have already been conducted. 
Another system is biohazard detection system, the one used by 
the U.S. Postal Office, postal system. Both of them rely on a 
phased-in approach, and that is the initial signal for a 
particular biothreat agent is then followed by confirmatory 
identification.
    CDC has worked very closely with USPS and public health 
partners on steps needed for that confirmatory identification 
and on developing effective response protocols. CDC has also 
taken the lead in working with Department of Homeland Security, 
Department of Justice and EPA in creating similar guidance for 
response to BioWatch signals. It is exactly the highly reliable 
methods of the Laboratory Response Network [LRN], that are used 
for this step of confirmatory identification.
    LRN is a national network of front line and advanced 
laboratory capacities capable of providing support in bio-
threat, chemical or other public health emergencies. During 
2001, LRN laboratories have conducted hundreds of confirmatory 
identifications for anthrax bacteria from all kinds of sources, 
environmental, human and others. They have also tested more 
than 120,000 environmental specimens for a total of about 1 
million tests. At this time, it is very important for us to 
continue to grow and enhance this network's capacity to be 
parallel with its continuously growing responsibilities.
    With much of the progress, CDC does agree with the GAO that 
there is room for further research in the area of validation. 
The anthracis protocols that we used in 2001 have been 
validated for identification of the anthracis, and the members 
of the participating laboratories did take part in the 
proficiency testing programs.
    However, validation methods for collecting Bacillus 
anthracis from air and surface did not exist at that time and 
therefore CDC used caution when providing recommendations and 
guidance for use of these methods to others. We began 
addressing the issues of validation of these methods 
immediately after the response ended. And the example of that 
is a side-by-side study conducted at Brentwood in which we used 
different sampling materials, which was done almost in the 
middle of the national crisis.
    We do continue to make efforts to validate components of 
this biothreat agent detection process, but we do believe that 
the full validation of every possible scenario variation might 
not only be practical but could not entirely replace the 
scientific judgment and event-specific evaluations.
    In the meantime, CDC microbiologists have really worked 
hard on evaluating efficiency of different sampling materials 
and processing methods. We had an interagency agreement with 
the U.S. Army Dugway Proving Grounds that has led to the 
development of a chamber in which we can establish and generate 
known concentrations of anthrax spores, which is critical for 
any kind of reliable and repetitive validation procedures. 
Studies are under way that will look at the efficiency of 
sampling methods for both air and surfaces that will allow for 
the detection--for lower limits of detection and also, very 
importantly, talk about intra-laboratory validation.
    We also have extensive collaboration with the Sandia 
National Laboratory on a project funded by DHS, and these are 
the studies that will talk about the surface sampling and 
extraction methods as well.
    So, in summary, environmental microbiology and sampling 
issues are indeed important tools for public health decisions, 
for law enforcement investigations and for evaluation of 
remediation success. CDC is sponsoring research for a number of 
validation gaps for Bacillus anthracis, and there are many 
other agents, and we are looking forward to working with all 
the agencies, Department of Health and Human Services, Homeland 
Security and other agencies, so that we can move forward and 
improve all of our methods.
    [The prepared statement of Dr. Popovic follows:]




<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Shays. Thank you, Doctor.
    Dr. Schafer.

                 STATEMENT OF DR. KLAUS SCHAFER

    Dr. Schafer. Chairman Shays, distinguished members.
    Mr. Shays. I don't think your mic is on. I have never 
figured this out. Doctors know so much, but they never know to 
turn their mics on. There you go.
    Dr. Schafer. Chairman Shays, distinguished members, I am 
honored to appear before the subcommittee today.
    Mr. Shays. Thank you. It is an honor to have you, sir.
    Dr. Schafer. I am responsible for the oversight of the 
Chem-Bio Defense Program [CBDP] within the Department of 
Defense. The CBDP is responsible for all aspects of the 
Department of Defense's fielding of operational chemical, 
biological, radiological and nuclear defense capabilities, and 
the chemical, biological, radiological and nuclear force 
installation program.
    The program has efforts across the acquisition life cycle 
from very early basic research and development activities, 
advanced development and the procurement of chemical and 
biological defense capabilities; finally, the entire life cycle 
management of these field of capabilities to ensure their 
quality and support while in the hands of the warfighter.
    I am accompanied this afternoon by Dr. David Cullen, who is 
immediately behind me, from the Joint Program Executive Office 
for Chemical and Biological Defense. The CBDP has been 
aggressively engaged in the research and development of 
biological warfare detection and identification technologies. 
Among these are technologies geared to rapidly and accurately 
detect anthrax in environmental and clinical samples.
    Prior to September 11, 2001, CBDP efforts had focused 
exclusively on developing capabilities that would eventually be 
fielded to their operational military forces. September 11th 
forced a broadening of the Chem-Bio Defense Program focus to 
provide capabilities in support of installation for its 
protection and the emerging homeland defense missions. Many of 
these technologies are the backbone of today's response system 
protecting the American public.
    In pursuit of these new missions, the CBDP has, and is 
currently fielding these systems and continuing the development 
of new capabilities which put a premium on sensitivity and 
precision in the integration of these technologies into the 
broader interagency response community.
    However, while the end mission has changed, the early 
research and development of these capabilities is still founded 
on the same basic tenets used to develop capabilities for the 
operational force, sound science and laboratory validation of 
technologies. This is always the first step in the eventual 
fielding of any capability.
    In support of the installation force protection and 
homeland defense missions, the Chem-Bio Defense Program has 
developed a total systems approach from directing the sample, 
the laboratory system for the routine analysis of aerosol 
samples as well as confirmatory analysis of suspect samples 
from other sources.
    The capability is founded on technologies largely developed 
and validated in DOD laboratories, such world class 
laboratories as USAMRIID and the Naval Medical Research Center, 
which are, by the way, also recognized as definitive Laboratory 
Response Network laboratories. Technologies, protocols and 
procedures developed in these labs, as well as others, are then 
transitioned into a network of laboratories providing 
capability to insulation force protection.
    This is what the Pentagon Force Protection Agency uses 
today. The CBDP has instituted an overarching Quality Assurance 
and Quality Control Program that assures these technologies, 
protocols and procedures developed and validated in the hands 
of scientists at DOD labs can and will perform with required 
precision and accuracy in the hands of field activities.
    The QA/QC Program involves not only the required 
documentation of all procedures and processes, but also 
continual proficiency testing to ensure that the laboratories 
are performing equally within the framework designed. The Chem-
Bio Defense Program has also continually and aggressively 
engaged with operational units to assure that decisionmaking 
and risk assessment is coupled with the correct technical 
information so that timely and accurate operational decisions 
can be made.
    Finally, we have been and we will continue to coordinate 
the development of technologies with the requisite policymaking 
that must go hand in hand to create a proficient and capable 
system. Within the Department of Defense, we are collaborating 
with the Assistant Secretaries of Defense for Homeland Defense 
and Health Affairs so technologies we are developing and 
fielding can be integrated properly and seamlessly into the 
medical response community and within the interagency to 
provide these desperately needed capabilities.
    To that end we are collaborating with the Department of 
Homeland Security and the Department of Health and Human 
Services in studies aimed at gaining VW collection, detection 
and identification systems, equivalencies between agencies, and 
we are developing interagency response frameworks that are so 
important to protecting the American public.
    Subject to your questions, that concludes my remarks.
    [The prepared statement of Dr. Schafer follows:]



<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Shays. Thank you. Dr. Schafer, would you mind if we had 
someone reproduce your remarks? We don't have any written 
testimony from you.
    Dr. Schafer. I was told this was oral testimony, and I will 
be happy to provide written testimony at a later date, if 
that's OK with the chairman.
    Mr. Shays. Let me ask you this, just so it doesn't happen 
again in my subcommittee. My staff said you didn't need written 
testimony? It is usual practice we require it the day or night 
before you come to testify.
    Dr. Schafer. No, sir. I was a late add, so I did not 
prepare testimony. Through the processes, we couldn't get it 
cleared in time by OMB.
    Mr. Shays. Well, I understand that part. What you are 
saying for the record is that you----
    Dr. Schafer. This is oral testimony.
    Mr. Shays. You were told just a while ago that you were 
testifying and didn't have anything written at the time, is 
that correct?
    Dr. Schafer. This is my oral testimony, sir.
    Mr. Shays. All right. Well, that's what we will have to 
deal with. I'm sorry, excuse me.
    Let me just recognize Jon Porter. Do you have a statement 
you would like to make or something you would like to say?
    Mr. Porter. Actually, I would like to enter it for the 
record, Mr. Chairman. I will submit it.
    But I would also like to welcome a good friend of mine, 
Linda Stetzenbach. She is here from environmental studies at 
the University of Nevada Las Vegas, Harry Reid Center. I will 
embarrass her for the moment. I think she is on the next panel. 
Welcome. But I will be submitting my statement. Thank you.
    Mr. Shays. I thank the gentleman.
    Mr. Porter. Thank you.
    [The prepared statement of Hon. Jon C. Porter follows:]



<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>



    
    Mr. Shays. I thank the gentleman. Let me just, as you 
stated, ask unanimous consent that all members of the 
subcommittee be permitted to place an opening statement in the 
record and that the record remain open for 3 days for that 
purpose. Without objection, so ordered.
    And I will ask for unanimous consent that all witnesses be 
permitted to include their written statements in the record, 
and without objection so ordered.
    Dr. Schafer, we appreciate your being here. We understand 
you were told recently you would be testifying. So it is good 
to have you here. We will just have to proceed through 
questions to ask you.
    Dr. Schafer. Thank you, Mr. Chairman.
    Mr. Shays. Thank you.
    Ms. Tulis.

                    STATEMENT OF DANA TULIS

    Ms. Tulis. Thank you. Mr. Chairman and members of the 
subcommittee, I am Dana Tulis, Deputy Director of the EPA's 
Office of Emergency Management. My office is responsible for 
providing national leadership to prevent, prepare for and to 
respond to human health and environmental emergencies, 
including terrorist events. I appreciate the opportunity to 
discuss EPA's involvement in the multiagency efforts to detect 
anthrax during 2001 and GAO's findings in their recent report 
on anthrax detection.
    I would also like to share with you steps we have taken 
since that time to improve the Nation's ability to detect and 
respond to anthrax contamination. With me today is Mark Durno, 
Senior On-Scene Coordinator in EPA's Region 5 and one of EPA's 
foremost sampling experts.
    In responding to the anthrax attacks of 2001, EPA's role at 
a site generally began after CDC determined the presence of a 
biological contaminant, in this case anthrax. EPA collected 
targeted environmental samples at postal facilities in Florida, 
on Capitol Hill and other nonpostal facilities for the purpose 
of characterizing the extent of contamination and for 
subsequent decontamination.
    In taking these steps, we used either wet swabs, wet wipes, 
HEPA vacuum samples or combination of these depending on the 
site specific circumstances. We did not use dry swabs because 
we did not believe they were effective.
    The GAO report appears to recommend probability sampling 
over targeted sampling for detecting anthrax contanimation in a 
building. EPA believes that targeted sampling strategies are 
valid and necessary for rapidly accessing the likelihood of 
contamination to ensure that necessary actions can be taken 
quickly and to protect those potentially exposed. Especially 
where the source of contamination is known, targeted sampling 
of services most likely to be contaminated, as determined from 
incident-specific details such as traffic patterns and air flow 
within the facility, epidemiological data and forensic 
information should provide key information to determine whether 
contamination exists in a facility. Where contamination is 
known to exist, but the source is unknown, however, use of 
statistically based sampling, may improve the probability of 
detecting contamination.
    During the anthrax attacks of 2001, there were hundreds of 
postal facilities potentially contaminated and quick action was 
needed, therefore we used targeted sampling to minimize people 
being exposed.
    EPA agrees with GAO that there is a critical need for 
validated sampling and analytical methods, and we are taking a 
number of steps to address this gap. Although a lot remains to 
be done, sampling methodologies have improved and are more 
consistently applied.
    EPA is collaborating with other agencies to develop 
standardized methods and procedures, and anthrax, of course, is 
one of those contaminants. Techniques are being developed to 
concentrate samples of chemical and biological contaminants 
where necessary to facilitate detection at low levels. EPA is 
also evaluating the performance of emerging and commercially 
available technologies such as amino acid test kits and water 
and other methods.
    The GAO report notes that extensive sampling efforts 
constrain available laboratory capacity and it suggests that 
laboratory capacity can be increased. Unfortunately, it is not 
that easy to increase laboratory capacity, especially for 
environmental analyses associated with biological and chemical 
warfare agents, where capacity is very limited right now or may 
not exist.
    However, when possible, we do look at individual labs to 
assess whether research capacity is available during time of 
critical incidence. But there is no environmental laboratory 
response network analogous to the CDC's laboratory response 
network at this time.
    EPA and other agencies have initiated a number of steps to 
deal with this problem. Internally, EPA's own Homeland Security 
Lab Response Work Group was created in October 2002, and we are 
working closely with the White House's Homeland Security 
Council, DHS, USDA, DOD, FBI, CDC, FDA, State laboratory 
directors and a number of associations, including the Public 
Health Laboratories Association.
    We as a work group have developed an on-line Environmental 
Lab Compendium of State, EPA and some commercial environmental 
analysis capability for homeland security purposes. We are also 
working to incorporate the capabilities of other Federal 
agencies. We have analyzed and mapped current laboratory 
capacities to determine the national supply of laboratory 
analyses for chemical, biological and radiological warfare 
agents, and we are currently analyzing five of the White House 
Homeland Security Council's scenarios to look at what the need 
is and therefore we can determine the gap between supply and 
demand.
    We have also established a reserve corps of 79 EPA analysts 
who can be trained in chemical and biological analyses, and we 
will be able to assist in meeting surge demand.
    CDC and EPA have developed a MOA to work closely together 
and to leverage the work of the Laboratory Response Network and 
to define our respective roles in environmental analyses. We 
have worked closely with the White House's Homeland Security 
Council to expand the MOA to include all other Federal agencies 
with existing or developing networks. This MOA, known as the 
Integrated Consortium of Laboratory Networks, is expected to be 
signed very soon.
    We have already started to meet and DHS has been posting 
these meetings. Consortium work groups will address consistency 
in sampling and analytical methods across the agencies. We do 
appreciate GAO's efforts to improve the Nation's ability to 
respond more effectively in the future, and we recognize there 
is a need to validate sampling and analytical methods to 
improve our tools and to increase national capacity for 
analyzing environmental samples.
    We believe we have taken significant steps in these areas 
and have greatly benefited by working closely with our 
colleagues on this panel, and we look forward to continued 
collaboration.
    Mr. Chairman, subcommittee members, this completes my oral 
statement. I, of course, am open to any questions you may have.
    [The prepared statement of Ms. Tulis follows:]




<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>



    
    Mr. Shays. Thank you, Ms. Tulis.
    Mr. Day.

                   STATEMENT OF THOMAS G. DAY

    Mr. Day. Good afternoon, Mr. Chairman and members of the 
subcommittee. I appreciate this opportunity to meet with you 
today to discuss the recommendations of the Government 
Accountability Office regarding validation of anthrax detection 
methods.
    As the Federal agency most directly and tragically affected 
by the anthrax attacks of 2001, the Postal Service fully 
understands the value of public and employee confidence and 
test results for the presence of anthrax. This was an issue 
raised by the Government Accountability Office in connection 
with the 2003 hearing of this subcommittee.
    GAO recommended that the Postal Service work with other 
agencies and its unions to consider a number of issues related 
to the testing of 286 facilities in the fall of 2001, of which 
only 23 tested positive for anthrax. We were asked to: Reassess 
the risk level for our employees and customers of the 
facilities that tested negative; reconsider the advisability of 
retesting those facilities, employing the most effective 
sampling methods and procedures; and then finally communicate 
our conclusions along with our rationale to the Postal Service 
employees and general public.
    Following extensive review by a work group that included 
experts from the Centers for Disease Control and Prevention, 
the Environmental Protection Agency, the Occupational Safety 
and Health Administration and our employee unions, it was 
concluded that no further sampling was warranted for those 
facilities that tested negative for anthrax spores.
    This decision was based on a number of factors. First, 
there was no new evidence of anthrax disease in postal 
employees or customers. Second, the Postal Service had 
instituted new maintenance procedures and modified work 
practices to reduce the potential for reaerosolization of 
anthrax spores. Third, that additional testing would not 
appreciably increase the safety of our facilities for employees 
or customers.
    The Postal Service is continuing to improve its process to 
protect our employees and our customers from biohazards in the 
mail. We have installed advanced Biohazard Detection Systems at 
107 facilities. Eventually they will be installed at 282 of our 
key mail processing plants.
    To date, the Biohazard Detection System has performed over 
550,000 tests involving over 12 billion pieces of mail. To date 
there have been no false positives.
    These automated systems, developed with the cooperation of 
experts from the Federal Government, the military and the 
private sector, provide rapid onsite PCR analysis of aerosol 
samples collected during the earliest stages of mail 
processing. They allow for quick response to a positive test 
result, triggering the local integrated emergency management 
plan, which includes the cessation of operations, facilities 
shutdown, notification to community first responders, including 
public health officials who would make any medical decisions 
regarding potentially exposed employees and customers.
    In addition to the Biohazard Detection System, we are also 
installing a ventilation filtration system designed to contain 
to release of biohazards as it moves through the mail.
    In developing and deploying the Biohazard Detection System, 
we recognized the need, very real need for standardization of 
processes to produce reliable, accurate test results in which 
our stakeholders can have a high level of confidence.
    Over the last several years, and as recently as last month, 
the Postal Service has been the focus of a number of events in 
which detection systems at other government facilities that 
receive mail have indicated possible presence of a biohazard. 
In each of these cases the Postal Service implemented a 
response plan that involved sampling and testing, operational 
adjustments and, where appropriate, preventive medical 
treatment for employees.
    Ultimately, investigation and further testing determined 
that mail was not involved in these incidents and, in fact, 
that no biohazards were present. The initial positive alerts, 
however, appear to reflect the varying capabilities of 
detection equipment as well as sampling and testing protocols 
relied upon by other agencies.
    Based on our experience, we agree with the Government 
Accountability Office recommendation that there be coordinated 
interagency efforts to develop standardized processes in 
connection with sample collection, transportation, extraction 
and analysis. However, based on our experience, we believe that 
targeted sampling, rather than the probability sampling 
recommended by the GAO, represents the most prudent and 
productive approach for the Postal Service.
    We believe probability sampling can be of value as a 
sampling protocol in response to a random event. However, once 
mail has been identified as a potential source of 
contamination, it is no longer random. At that point, logic and 
responsibility dictate that sampling follow the trail of the 
mail, permitting us to conduct sampling along the path taken by 
the suspect mail during processing.
    Probability sampling, by its very nature, might not include 
sampling from a specific location or piece of equipment through 
which a contaminated piece of mail has moved. This can create 
the potential for a false negative.
    Following last month's incident at the Defense Department's 
Remote Delivery Facility, we conducted targeted sampling at our 
Washington, DC, Government Mails Facility, where mail for 
delivery to the Department of Defense is prepared. Targeted 
environmental sampling allowed us to focus on the areas and the 
equipment through which this mail would have moved. While it 
was found that mail was not involved in the Defense Department, 
it provides a demonstration of the steps we take when this type 
of incident occurs.
    We quickly implemented a controlled shutdown of the 
Government Mails Facility. We promptly notified employees and 
their unions, both at a national and local level. We continued 
to provide employees and unions with regular information 
updates until the situation was resolved. We arranged for the 
distribution of antibiotics to all of the facility's employees 
on all work shifts, reflecting a decision that was made in 
conjunction with the Department of Health and Human Services, 
Centers for Disease Control and the District of Columbia 
Department of Public Health. We also promptly accounted for 
seven employees who were recorded on sick leave during the 
period of concern to verify that they were not exhibiting 
symptoms of anthrax.
    Considering that incident and others like it, we believe 
that the recommendations of the GAO, with the sole exception of 
probability based sampling, would go a long way in minimizing 
the possibility of similar future incidents. We look forward to 
working with the Department of Homeland Security and other 
agencies to implement these recommendations.
    Thank you, and I would be delighted to take your questions.
    [The prepared statement of Mr. Day follows:]



<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>



    
    Mr. Shays. Thank you, Mr. Day.
    Dr. Kelley, we saved the best for the last. I say that 
because you are a true Yankee from Connecticut.
    Dr. Kelley. Yes.
    Mr. Shays. I don't know how long you have lived in 
Connecticut though.
    Dr. Kelley. About 6 years.
    Mr. Shays. About 6 years. Well, welcome to Connecticut. You 
have the floor. Is your mic on?
    Dr. Kelley. Yes, it is.
    Mr. Shays. I asked only because you are a doctor.
    Dr. Kelley. I know, we have problems with those things.

               STATEMENT OF DR. KATHERINE KELLEY

    Dr. Kelley. Mr. Chairman, members of the subcommittee, 
thank you for the opportunity to testify on assessing anthrax 
detection methods.
    My name is Dr. Katherine Kelley, and I am here today 
representing the Association of Public Health Laboratories 
[APHL]. I am currently the director of the Connecticut 
Department of Public Health Laboratory. As its name implies, 
APHL is the association for State and local governmental 
laboratories that perform testing of public health 
significance. In the area of terrorism response that includes 
both human and environmental testing. This work is done through 
key partnership with the Centers for Disease Control and 
Prevention and the Federal Bureau of Investigation to provide 
rapid local response to a biological event, using consistent 
scientific methods and reagents and nationally accepted 
evidentiary practices. The structure for this partnership is 
the Laboratory Response Network [LRN].
    The LRN was deployed in response to the mail contamination 
events post-September 11th. In some States the laboratory role 
was limited to testing mail distribution centers in support of 
the early survey to assess the extent of contamination. In 
other States, such as Connecticut, the laboratory participated 
in the diagnosis of infected people and clinical investigations 
to find the source of their infection and environmental 
investigations of the postal distribution system as a possible 
source of anthrax and in the environmental cleanup and 
clearance of contaminated sites.
    All this work was carried out under the direction of a 
joint command center made up of experts from CDC, the 
Environmental Protection Agency, National Institutes of 
Occupational Safety and Health, U.S. Postal Service and APHL, 
and we drew on outside experts as needed.
    APHL agrees with the recommendations of the GAO report 
under consideration today. There continues to be a need for 
agreed upon, validated methods for clinical specimens and 
environmental samples that may be encountered in any kind of a 
threat event.
    However, 4 years after these events, it is easy to overlook 
the highly charged, complex situation of that moment in this 
Nation's history. I would like to use our experience in 
Connecticut as an example.
    The Connecticut Department of Public Health received CDC 
funding to build a response laboratory capacity for weapons of 
mass destruction bioagents. The working hypothesis at that time 
was that the LRN would be responding to human outbreaks caused 
by biothreat agents and that most, if not all, of the testing 
would be of human clinical specimens.
    As a followup to the anthrax letter sent to Congress, our 
laboratory assisted USPS in an assessment of three postal 
distribution centers in Connecticut. On November 11, 2001, our 
laboratory tested 53 samples from the Wallingford USPS 
distribution center as part of the assessment of the facilities 
that might have been contaminated by the Daschle or Leahy 
letters.
    All samples tested negative. But the machine that processed 
the mail at Oxford and Seymour wasn't sampled. On November 19th 
a local hospital contacted the Connecticut State Health State 
Department to report a suspected anthrax case in an elderly 
woman from Oxford, CT. Blood culture specimens were transported 
to our laboratory from the patient, and they tested positive 
for anthrax using LRN methods. CDC and the FBI were notified 
immediately. On November 20th, CDC retested the specimens and 
confirmed anthrax.
    Assuming that this was the index case of a potential 
anthrax outbreak, CDC was asked to provide assistance and a 
team of epidemiologists was dispatched to Connecticut. In the 
interim, the FBI and Connecticut State police secured the 
patient's home.
    Over the course of the next few weeks, CDC and State 
epidemiologists collected samples from all locations the 
patient had visited prior to her illness and also from every 
part of her home. The DPH Laboratory tested them all, and they 
were all negative for the anthrax Bacillus.
    One of the CDC epidemiologists was familiar with the USPS 
bar code system for tracking first class mail. This data were 
reviewed to see if any mail coming into close proximity to the 
Daschle or Leahy letters had gone to Oxford or Seymour. One 
such letter was identified and retrieved for testing. It was 
positive for anthrax spores even after repeated sampling. This 
link to the anthrax positive mail directed the investigation to 
the Wallingford postal distribution center and to a more 
targeted sampling of the machines that process mail to the 
Oxford-Seymour route.
    Mr. Shays. Your 5 minutes are up.
    Dr. Kelley. Yes, OK. To this day there hasn't been a direct 
link made to that case, but we do believe that the patient was 
very fragile and that cross-contaminated mail was probably the 
source of her infection.
    As I indicated at the start of my testimony, we agree with 
the recommendations of the GAO report. However, I would be 
remiss if I did not mention the challenges associated with the 
response to chemical terror events.
    Federal funding has improved the availability of public 
health labs to measure chemical substances in people exposed to 
a toxin. In fact, we drilled that yesterday. There is still, 
however, much work to be done to increase the capability of 
public health laboratories to be able to address local events 
in terms of environmental testing.
    [The prepared statement of Dr. Kelley follows:]



<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Shays. Thank you very much.
    At this time the Chair will recognize Ms. Norton, give her 
the gavel for a few minutes, and I will be back in a second.
    Ms. Norton [presiding]. Thank you, Mr. Chairman. My first 
question has to go to the place where you would, I think if you 
asked the average person, I think if I asked any of you, if 
somebody was terrible and treacherous enough to want to do 
another anthrax attack, what facility of the U.S. Post Office 
would they go to, and I think you would say, well, they'd go to 
the facility that handled congressional mail or White House 
mail. You would say that based on past practice, where two 
Senators got terribly lethal letters. You would say that based 
on what we know about al Qaeda and terrorists.
    I have to say that I was stunned to learn, and if I am 
wrong I would like to know that right now, that of these 
facilities that have gotten the equipment, 107 facilities--and 
I understand you have to spread them, can't do it all at one 
time, but 107 facilities, eventually 282 plants, that V Street, 
where White House mail, congressional mail goes, is not one of 
the facilities that has these detection systems, is that true?
    Mr. Day. That's correct. As of now, that is a facility that 
will have it. That facility along with the Curseen-Morris 
facility, which already has one system, or a modification to 
the system that we are installing everywhere else. It's a free-
standing system. So the V Street facility will have a free-
standing system as well the Curseen-Morris facility.
    Ms. Norton. I asked this question not because I think 
Members of Congress or the White House are entitled to any 
preference over the average American, but looking at where the 
priorities for--that I think anybody, even your common sense, 
even the average layman would say, if you were going to pick, 
pick 50 places, pick 5 places to start and gave them a 
description, it does seem to me that at least in the top five, 
V Street would be there. The mail coming, for example, to the 
Congress was shut down 3 or 4 days after this until this got 
straightened out.
    So I want to know what are your priorities. How do you 
decide when this detection equipment will in fact be installed? 
Is there some method to your madness that escapes me when V 
Street doesn't have----
    Mr. Day. V Street and the Curseen-Morris facility lack the 
piece of equipment that the biodetection system is installed on 
the Advanced Facer-Canceler. So there is a unique application, 
a free-standing----
    Ms. Norton. So why do the others have it and they don't? 
First of all, I want to know what your priorities are. First of 
all, I want to know how you select the order in which 
facilities get this equipment. Second, I want to know when V 
Street, which serves the part of U.S. mail most likely to be 
attacked will, in fact, get such equipment? Those are my 
questions.
    Mr. Day. The priority has been along the East Coast in the 
areas that were directly affected. It went onto the Advanced 
Facer-Canceler System, which is not a system that either the 
Curseen-Morris or the V Street facility has or will ever have. 
They don't process that kind of mail. There is a free-standing 
system that is located at Curseen-Morris. The same system will 
go into the V Street facility as will additional free-standing 
systems.
    Ms. Norton. Thank God it is in Curseen-Morris, which 
everybody should understand is Brentwood, but haven't I gotten 
an answer from you about how you choose priorities based on the 
section of the country? OK, so we got the section nailed down 
pretty clear.
    Once you know the section of the country, and there are 
umpteen places to go, then how do you decide where in fact this 
equipment is going to go, and when will V Street get equipment? 
There are people in V Street who were at Brentwood and one of 
the reasons they wanted to get out of Brentwood is because they 
couldn't stand to go back in Curseen-Morris and now they learn 
that--or yet to hear that the equipment isn't in V Street, and 
I haven't yet heard from you when it will be in V Street.
    Mr. Day. We are working with a contractor to get it 
deployed in there. I will get back to you with the exact state 
it will be installed.
    Ms. Norton. I am speaking, I am sure, for the chairman. May 
I ask that in 30 days you get us a list of your priorities for 
installation for this equipment and specifically when the 
equipment will be installed in V Street. Again, this is why I 
say it is really 2001 all over again.
    Let me go to my next question.
    Mr. Rhodes. You know, you opened your testimony saying that 
there are no validated methods for sample collection and 
analysis, so that agencies, quote, cannot know. As you opened 
your testimony, I felt like I was hearing someone talk about 
how we don't have a cure for cancer yet so we cannot know 
certain things. I mean, is this really rocket science? I mean, 
what is it?
    I don't understand why we don't have any validated methods. 
Do you mean there doesn't exist any? Do you mean we just don't 
have any? Would you please clarify why there are no validated 
methods, 4 years after an anthrax attack. Or perhaps this is 
more complicated, would you break it down for us so that 
perhaps the Congress needs to do more to help whoever it is, 
CDC, EPA, somebody, learn how to validate methods so that they 
can then be assured that any samples will be as close to valid 
and what you tell us and what they tell us is possible.
    In trying to answer your question about why, I don't know 
exactly why, other than in the world of chemical, biological, 
radiological and nuclear countermeasures, biological 
countermeasures are still considered less important.
    Ms. Norton. Do you think it is a matter that the priority 
has not been put on finding ways to validate these samples?
    Mr. Rhodes. Validation methods are well understood. I'm a 
scientist. Everyone here is a scientist. We know how to 
validate. It's a matter of is something going to be done. As 
you've heard from every person here, they've all concurred that 
validation of methods, they concur with that recommendation.
    Let's go back to the 1990's. In the 1990's there were 
several incidences, actually several hundred incidences of hoax 
letters being sent through the mail that claimed to have 
anthrax. As a matter of fact, in the year 2000 alone, the 
Federal Bureau of Investigation investigated approximately 200 
false anthrax letters sent through the mail. At that point in 
time, methods still weren't validated and people didn't 
consider biological terror and biothreat to be a high threat.
    Since 2001, the fall of 2001, you would think that now that 
we have five people actually dead from that, 23 injured, 
seriously injured, that an emphasis on validation of both 
protocols as well as the techniques, the techniques, the tools, 
the procedures and the processes, would occur and would be a 
priority. It hasn't occurred. And I do not know why.
    It's not that it's something that isn't understood well by 
everyone sitting here at the table and other places. It's a 
matter of are we going to make it a priority; are we going to 
take the time? Because it's not just enough to say that a dry 
swab is inappropriate for testing in a particular area. It's 
taking the entire process of sample collection method--tool, 
transport, extraction, and analysis--so all of that has to be 
validated and the inherent errors in the various steps have to 
be understood so we can have confidence about the answer that 
comes out at the other end.
    Ms. Norton. Dr. Popovic, I do not understand how you can 
certify labs if in fact we don't have any understanding in 
these labs about validating their processes. On what basis are 
you able to certify the labs that have been certified?
    Dr. Popovic. I agree with everybody on the panel that 
validation of a lot of these steps is really important. I would 
add that there are a lot of steps within this process that have 
been validated. For example, the protocols for identification 
and molecular characterization of a number of biothreat agents 
have existed in 2001 and have been expanded up to this point. 
At this point, we have added to the laboratory response network 
160 protocols to the existing spectrum of what we had since 
2001.
    The problem here is twofold: One is scientific and one is 
physical. A lot of these validation studies require two things. 
One is space that has to be specifically designed. A lot of 
studies cannot be done with surrogates. They have to be done 
with the real thing, and so we do need more biosafety level 3 
and biosafety level 4 space.
    Ms. Norton. Do you have to have anthrax in order to do it?
    Dr. Popovic. You can use surrogates for a large number of 
studies. But you cannot use it for all. So the other thing is 
you do need diverse scientific expertise. What we are saying 
here is individual agencies have done some steps of the 
validation, but as Dr. Tulis has pointed out, this integrated 
consortium of network laboratories is really a place where all 
of these individual efforts are now getting to be put together, 
and we see that as a big umbrella under which really major 
steps toward validating a lot of these methods are going to be 
able to take place.
    Ms. Norton. Mr. Chairman, I see you have returned.
    Mr. Shays. Keep going. The gentlewoman has more time. Let's 
turn off the clock.
    Ms. Norton. What you last said gave me some hope. Obviously 
this is something we have had to begun doing after the 
horrific, tragic anthrax attacks, and we understand that. And 
you say that this consortium of labs that Ms. Tulis talked 
about, too, are now apparently getting their act together and 
what is not an easy process will be taken care of. And I have 
every confidence that you are doing that.
    The problem we have is that in the meantime, these false 
positives, these false alarms--imagine yourself working in a 
postal facility today, hearing the testimony you have heard 
here. Nobody can tell you if it is or if it's not; so if they 
say it's not, they are not going to believe it's not. It must 
be terribly anxiety-producing.
    I must ask you, even given the complexity of the process 
you describe, when you think we will get validated testing 
somewhere, so that we don't have the GAO telling us that 
there's nowhere--because they say anywhere, there's nowhere 
anyway--there's no way anywhere, rather, in our country to 
know, when you get a sample, if it is negative or positive, 
regardless of what the lab tells you. That is extremely 
disconcerting for us to hear here, not to mention postal 
workers who every day have to deal with our mail here.
    So I have to ask you, when do you think we will in fact 
have this validation process underway so that at least the GAO 
will tell us there is somewhere in America where validated 
testing goes on?
    Dr. Popovic. I would like to emphasize once again that the 
steps for confirmatory identifications have been validated, and 
those are the steps that are necessary to be linked with the 
initial signals that come out of various early warning systems 
such as BioWatch, BioHazard detection systems. Efforts are 
really underway, and we have already talked with a number of 
our colleagues on trying to coordinate these initial signals 
with a proper public health response, which is what you are 
asking: When can we know that the initial signal is going to be 
confirmed?
    Confirmatory tests can be done within the LRN within the 
day, within several hours actually, so we are already working 
on that.
    Ms. Norton. We should remember that this has occurred after 
this mail has gone and been irradiated, or whatever we call it, 
and so obviously the chances are low. I do not want to scare 
everybody. But nevertheless, everybody knows that none of this 
is perfect. I am concerned that you have not given us a 
protocol for how you are going to get there and when you are 
going to get there. And knowing this chairman, I think he is 
going to want you to be more specific than that. I do not know 
if Miss Tulis is prepared to be more specific.
    But to say we are getting there really is not good enough, 
particularly since Mr. Rhodes has clarified that it really 
isn't rocket science. And he has been clear that in fact if the 
effort is put there, it can be done. And clearly the effort yet 
has not been focused here. And we are asking for it simply to 
be focused enough so that, for example, somebody from the 
government would be able to say in 6 months, by the end of the 
year, we ought to have a validated testing protocol so that we 
could then spread to the labs around the country. So is that 
too much to ask?
    Miss Tulis, you didn't have an opportunity to respond to 
the question.
    Ms. Tulis. On the environmental side, we have had a little 
bit of a problem, because we don't have the analogous 
laboratory response network, so we've been working the best we 
can to leverage the existing resources that are out there. In 
fact we've been having a number of conversations with CDC and 
worked on this initial memorandum of agreement which now has 
been expanded to all the Federal agencies. So what we're trying 
to do is leverage the resources as best we can.
    I don't know if I can give you a timeframe today, but I can 
tell you that on the analytical side, there is a basic 
compendium, standard and local methods, which we have put 
together with other agencies, which really is the first step. 
And the next step, as we are going through right now, is 
establishing a validation process for those methods.
    Again, I cannot give you an exact timeframe because we need 
to figure out which ones to validate first and how to go 
through this process. But it is something that is very much 
right now of being a high priority.
    Ms. Norton. Just bear in mind that our mail is irradiated 
before it comes here, for good reason, because this is the 
place of the tragedy; but the mail of most people in the United 
States is not irradiated so that the clear and present danger 
posed, as concerned as I am with the targeted facilities of the 
U.S. Government--let us be clear, the clear and present danger 
really is the people of the United States who don't have their 
mail irradiated. So if it goes to some big post office 
somewhere where there isn't a government facility, my friends, 
with what you have just testified here, there is a far greater 
danger to the average American and to the average American 
postal worker outside of this region than there is to anyone 
else.
    For that reason I believe that the subcommittee has simply 
got to look into giving you a deadline for focusing on the 
validation process so--that Mr. Rhodes of the GAO tells us can 
happen. And remember what his testimony is. Yes, it is not 
rocket science. No one has given it the focus that would 
produce validation. Yet that says it all to me. And without 
validation, I think you are endangering mail systems throughout 
the United States. And that is on you, and I think you have to 
do something about it right now.
    Thank you, Mr. Chairman.
    Mr. Shays [presiding]. I thank the gentlewoman.
    I was thinking as we were having this hearing, that we have 
had hearings that go well before September 11, 2001 in which we 
talked about, in theory, weaponized anthrax. And we said it had 
no antidote in a sense that where, if you were not protected 
before, it could kill you. Then we used Cipro, an antibiotic, 
to deal with it and it appeared to work better than I think we 
anticipated. So obviously we keep learning things.
    I am wrestling with a few things. I get the sense that CDC 
thinks from a target, and it starts narrowly and works out, and 
I get the sense that EPA starts broadly and works in. And then 
I am thinking to myself, well, is one better than the other? It 
seems to me they both have their role.
    But with the facility in Connecticut, we basically 
identified someone who was not well, an older person, and I am 
suspecting from that, the conclusion is that the more frail you 
are, the more vulnerable you become to the anthrax spores.
    I am told you can basically put about a million spores in 
your hand and have clearly weaponized a very fine structure. 
You could literally hold about a billion. I'm sorry, not a 
million, about a billion. And then what I have the sense was we 
did the CDC model, the person, and we targeted where the flow 
could go. And so there was part of this building that was not 
checked out. And in the rafters and in the machinery, we then 
did the EPA model. We then looked at every aspect and found 
some spores, anthrax spores.
    So far, does anyone want to correct me on what I am seeing 
has happened? Dr. Kelly, is that accurate or not?
    Dr. Kelley. That's pretty much the way it went, right. The 
Wallingford facility was sampled many, many, many times and 
from a different perspective, part being the investigation of 
the case, and then the extent of the problem; and then was it 
cleaned up sufficiently. So there were quite a few different 
ideas that were being called on.
    Mr. Shays. What's amazing to me is that I make the 
assumption that the elderly woman who was killed in Connecticut 
wasn't in the facility, yet she was killed by some contact with 
spores. I make an assumption--and I want to be corrected if I 
am wrong--that it's likely that some in the postal facility, 
they were also exposed, but they had the capability to have not 
been, to ultimately succumb to it.
    Were people in the facility given Cipro?
    Dr. Kelley. Yes.
    Mr. Shays. So the irony here is that if we are using the 
model that if you didn't die, it must not be there. Once we use 
Cipro, you might not even be sick; in a sense, we were using a 
prophylactic that protected some who were in the facility, so 
the model that you look at, you look at its impact on the folks 
there. So in one sense, one of our modeling systems couldn't 
work properly because we introduced Cipro to it.
    Dr. Kelley. The patient also received antibiotic therapy, 
but----
    Mr. Shays. It was too late.
    Dr. Kelley. It was too late.
    Mr. Shays. And she was how old?
    Dr. Kelley. Ninety-four.
    Mr. Shays. So the bottom line is, though, it's very 
possible that we had postal workers who were exposed, who 
either didn't succumb because the exposure was so slight and 
they were so healthy, or that they were exposed more 
significantly but they had actually taken an antibiotic that 
got them through, and we then never knew they were exposed.
    Dr. Kelley. Correct.
    Mr. Shays. The chairman raised questions about why is DOD 
given different--and I'm going to raise it in two parts. Dr. 
Schafer, this is not in any way directed to you, but in the 
process of trying to find who would testify, it became very 
real to us that DOD didn't know; and the fact that DOD didn't 
know was an indication to us that you have a broad--there are a 
lot of folks involved, and there is no sense of one person 
being ultimately in charge. Dissuade of me of that view or help 
me sort out why it's true.
    Dr. Schafer. Sure, Mr. Chairman. DOD has had well-
established processes in place for a long time. I believe after 
September 11th, many people tried to put things in place, so 
that may have been a factor. But there was an element of human 
error that happened in this particular case. But the processes 
we have in place for verification of results, we never rely on 
a single test alone, and there is this process that moves, 
basically moves through the various layers of the lab, with the 
final element of that being one of the lab response network 
labs actually doing confirmation. So I think that's why this 
particular incident looks somewhat different.
    But in general we have put processes in place that mirror 
the CDC processes, are exactly the same thing, and we are part 
of that network. So I don't view that----
    Mr. Shays. You used the words ``exactly the same'' and 
``part of the network.'' My view is that you used validated 
labs and some that were not. I do not know, what is the proper 
term? Certified and not certified?
    Dr. Schafer. Well, let me talk about something called the 
installation protection program. That was the Secretary's 
decision to bring 200 military installations, start doing 
environmental sampling in those. And those processes had to be 
established primarily because of funding constraints and so on. 
And the labs are different but the processes are exactly the 
same. So we are no different than the other agencies in that 
regard. But we do have different requirements, and so there may 
be differences in that regard.
    Mr. Shays. I honestly don't quite understand what you're 
saying. What I hear you saying is in a sense saying, yes, we 
used labs that weren't certified but were different.
    Dr. Schafer. In this particular instance, this was a 
contract let outside the system.
    Mr. Shays. Right.
    Dr. Schafer. And so there was an exception and there was 
human error as well. So it probably looked a lot worse than it 
really was. But on the other hand, it generated----
    Mr. Shays. Describe human error to me. I am not asking for 
a name, but I am asking for human error in what way?
    Dr. Schafer. Well, we think there was an error introduced 
in the laboratory that did the procedure. What I would like to 
do is defer that to the second, the operational side of the 
questions that you have, because they have all those details.
    Mr. Shays. So we will leave on the table that there was 
human error, and you think the second panel will get the answer 
to that.
    Dr. Schafer. I believe there was error in the process which 
generated the false positive.
    Mr. Shays. Mr. Rhodes, when you hear the question I ask, 
what is your reaction? Don't tell me you are thinking about the 
fact that Illinois lost last night. What is your reaction to 
what we are wrestling with?
    Mr. Rhodes. Trying to find a single point of contact 
relative to this question? I think that is the problem 
everywhere. As you look at our recommendations relative to 
DHS--and I understand you want to have another hearing where 
DHS is actually present, but I have to be very clear. You have 
read DHS's comments. DHS's response to our report is a few 
pages of explaining why they can't do it, whether they have the 
charter or not.
    Not everybody in government is supposed to look like the 
Heisman Trophy, you know, pushing away the problem and carrying 
their own ball. Somebody has to be in charge. You have to be 
able to come back and say you are the one who is responsible. 
You now own the problem. That is how we organize validation and 
that is how we make it a priority.
    Mr. Shays. Who do you think owns the problem right now?
    Mr. Rhodes. Everybody.
    Mr. Shays. And who should own it?
    Mr. Rhodes. Well, the Department of Homeland Security is 
our recommendation, that they should be the one who owns it as 
a Department; but then within each department or agency, 
someone has to be designated as the owner and you should have 
the 1-800 number or something: Iamit.gov. That's the location. 
That's the person.
    Mr. Shays. One of the problems in this administration, I 
think, and in this Congress too, I guess, is that there is not 
the accountability that we need in a lot of things. I think 
that the failure to hold people accountable for a lot of bad 
things that are happening in government is seeping through. 
Nobody is making claim to it, no one wants ownership, and no 
one is taking responsibility once something goes wrong.
    Mr. Rhodes. I guess fallout is the wrong term--but the 
downstream effect is that you can't get good information. For 
example, you asked were the postal workers put on Cipro, and 
everyone jumped in and said yes, right away. Wrong. The moment 
it was found out that it was positive they were put on Cipro.
    There was a postal carrier who delivered a 94-year-old 
asthmatic shut-in's mail that killed her. His bag was 
contaminated. His vehicle was contaminated. No one knew it. So 
once everybody found out that it was positive, then, yes, they 
were put on Cipro.
    As somebody who was in the Hart Building the day that it 
was contaminated, yes, I was put on Cipro, but that was a very, 
very straightforward event: Open the letter. It falls on the 
floor. We all go get our Cipro.
    Mr. Shays. Let me just understand the concept of 
validation. We are not sure that we really have a good process 
in place, correct? Let me back up and say it's very difficult 
to detect anthrax, would everyone agree? I mean, it costs 
millions and millions of dollars, because we are in a huge 
building and we are looking for a few spores that you cannot 
even see.
    Mr. Rhodes. And let me extend this, when you say a few 
spores. If we are talking about your constituent who was a 
customer at Wallingford, as you've heard, no anthrax detected. 
There's anthrax in the neighbor's mail, there's anthrax in the 
postal carrier's vehicle, but no one found in all the sampling 
that was done in her home, no one found anything.
    So if I design a detection system for the lethal dose, 50 
percent of 10,000 spores, what we have found in the fall of 
2001 is the lethal dose, one, which is an immeasurable amount. 
She may have completely inhaled all of it, and now we're 
talking about less than 100 spores. You made the point, a 
billion spores in the palm of your hand. That's small potatoes. 
Multiple trillions of spores can be held in your hand if it is 
weaponized well enough.
    Mr. Shays. I am an impressionable person, and I may say 
that at some meeting. Your testimony is that where I said a 
billion, you're saying you could literally hold trillions of 
spores.
    Mr. Rhodes. Absolutely. You can hold trillions of spores in 
your hand if we're talking 1 to 5 micron with no electrostatic 
charge and all the rest of that. If we have milled it down to 
that level, of course, you can hold trillions of it. You can 
have trillions per gram, depending on the concentrate. So 
billion is a big number, but trillion is a bigger number.
    Mr. Shays. So my conclusion is that it's pretty difficult 
to locate this stuff in a building where you could have a 
handful, a trillion spores that go through the system, the air 
ducts and so on. At one point they were even talking about 
taking down the Hart Building, and I don't know if that was 
foolish talk, but they were basically saying that they may not 
be able to get all that is in this building, they would have to 
tear it down. Which was an extreme statement, but not so far-
fetched given what you have just said.
    So having said that, we all acknowledge it's difficult to 
find these spores and determine it; and what you are saying to 
me is reminding me that what triggered the investigation the 
second time in Connecticut was someone died we believe because 
of anthrax, but we never nailed it, affirmed that she in her 
person and so on, but that it was in the neighborhood. It was 
with the carrier. It was with her neighbor and on and on.
    Mr. Rhodes. Just one clarification on that. That was 
actually the fourth time that facility was tested.
    Mr. Shays. Having said that, I came to this hearing 
thinking this is almost an exercise in futility. It's so 
difficult. How could you ever be certain? We could do the best 
test and never be certain, so how can we give something a clean 
bill of health even if we do what you recommend?
    So that is what I am still wrestling with a little bit. 
Maybe you can help me sort that out. What I am wrestling with 
is we can never know if the positive is real and if the 
negative is meaningful, because it may be we just didn't find 
it.
    Mr. Rhodes. What you can know through validation of both 
protocol as well as tools, techniques, etc., is you can 
understand your confidence interval, who comes back to you and 
says this building is clean, this building is safe. You can 
then ask them, how do you know, how well do you know, how much 
confidence do you have in that answer?
    Right now, as you've said and as Ms. Norton has said and as 
Chairman Davis said, we have a nice mosaic of maybes. And the 
idea is you're always going to get some confidence interval. 
But if somebody walks up to you and says I'm 90 percent 
confident or I'm 40 percent confident or I'm 60 percent 
confident, now you're able to make a public health decision 
based on how good the data are.
    Mr. Shays. OK. I'm going to put it in my words. First off, 
let me ask you, would anyone here like to make a comment to the 
dialog that is happened so far? Does anyone want to respond to 
any question I have asked or make a comment? Anybody disagree 
with anything I've said or anything anyone else has said?
    Mr. Day. Mr. Chairman, you've just used the case of Mrs. 
Lundgren. The fourth time through is when the positive was 
finally found, and it was through the ability to track through 
the trail of the mail to a specific bin on a specific machine. 
It was targeted sampling that found it ultimately.
    I agree with Mr. Rhodes, there's a level of probability 
sampling that can be done that will have confidence interval 
around it. But when you have a known event--and that becomes a 
critical issue for us, is it a known event, known source, 
versus a random event, unknown source--targeted sampling, as 
was the case with what happened with Mrs. Lundgren and when we 
finally were able to find it in the Wallingford facility, it 
was targeted sampling that found it.
    Mr. Shays. But what's interesting to me is had she not 
died, we never would have known that there was in fact anthrax 
at that facility. We never would have known it, ever.
    What I'm hearing you say about the validated approach is 
that we are going to know the strengths for the most part and 
weaknesses of the process.
    Mr. Rhodes. The limits, the limits of detection.
    Mr. Shays. Fair enough. And we are going to know some 
consistency from one place to another to another.
    Mr. Rhodes. Right, right.
    Mr. Shays. Let me, before going back to Ms. Norton, let me 
ask counsel to ask a few questions.
    Mr. Halloran. Dr. Popovic, you said twice that the CDC 
testing methodology in the lab has been validated. Is that 
validation, is it the same for clinical samples as well as 
environmental samples or is there some difference?
    Dr. Popovic. I was talking about the methods for 
identification, confirmatory identification. Those are the 
methods that are the same regardless of what the source of the 
organism is. Once you isolate the organism, be it from a 
clinical sample or from an environmental sample, the procedures 
and steps to identify what the organism is are the same.
    Mr. Halloran. So that's the gold standard?
    Dr. Popovic. Correct.
    Mr. Halloran. Now, work me back from there. Can you repeat 
what the gold standard is?
    Dr. Popovic. Once you have an organism regardless of the 
source, where it came from, it can come from air, from 
surfaces, from food, from clinical sample, the procedures to 
identify that organism and say this is Bacillus anthracis and 
the procedures that are molecular characterization are gold 
standard. They have been validated. And those are the methods 
that are used in the LRN.
    Mr. Halloran. And once that sample walks in your door, how 
long does it take to get that validation?
    Dr. Popovic. It can depend on a type of a sample. For 
example, if you have a clinical sample----
    Mr. Halloran. Wait a minute. It didn't depend on the type 
of sample a second ago.
    Dr. Popovic. OK. Let me back up a little bit. If you have 
blood from a patient, you can usually grow the organism within 
12 to 24 hours, and within another few hours you can perform 
all of the tests that are necessary for you to be able to say 
this is the Bacillus anthracis.
    Mr. Shays. Can you grow it faster than what would happen 
naturally within the body? I mean, do you speed up the process?
    Dr. Popovic. You cannot actually grow it faster than it 
would normally multiply in the best circumstances. Bacillus 
anthracis is one of the amazing bugs which actually multiplies 
fairly quickly.
    Mr. Shays. You're telling me more than I want to know right 
now. The point is, though, that is not really much of a help, 
because in the end, the person who has the blood who has been--
not infected, because--well, it's infected--who has been 
infected would be proceeding just along the same lines as when 
you discovered it. In other words, they would be getting sicker 
during that period of time. I'm sorry I went off the subject, 
but unfortunately I'm chairman so I get to interrupt. Remember 
your line of questioning.
    Let me understand this so I don't leave with a false 
impression. If you find it in the blood, you will find it fast 
enough to give them Cipro to help them.
    Dr. Popovic. It depends when the blood was collected. If 
the blood was at the beginning of the disease, yes. If the 
blood was collected when the patient was dying, then no. It 
really depends at what stage of the patient's disease. The 
sooner the better.
    Mr. Shays. Clear your mind of everything I asked you and go 
back to his questions.
    Why don't you start over again?
    Mr. Halloran. Work me back through the process now in terms 
of the differentiation between clinical and environmental 
samples and why there seems to be this either/or choice between 
targeted sampling and environmental sampling. Is it, let me 
spray the panel here, is that a mutually exclusive choice? Must 
we make that choice?
    Dr. Popovic. Do we have to make a choice with it to do 
targeted or probabilistic sampling?
    Mr. Halloran. Right.
    Dr. Popovic. We don't have to make that choice always. 
There are situations, such as in outbreak investigations, when 
you need to have rapid assessment, when you need to be able to 
make a decision, when you need to be able to within a very 
short period of time to make that decision, then targeted 
sampling is really efficient and effective.
    Mr. Halloran. Right. But wouldn't it make sense at the same 
time to begin to map out your grid and start sampling on that 
grid at the same time you are doing your targets, to know the 
zone of exposure you are going to have to go back to anyway, as 
they found out in Wallingford 5 months later? Why pick one?
    Dr. Popovic. There are a lot of issues. Sometimes there is 
a capacity issue. Can you actually handle thousands and 
hundreds of specimens when you actually have a fairly good 
scientific judgment based on epidemiology that this is where 
you need to look.
    Mr. Halloran. But you could store them, could you not? Do 
they keep?
    Dr. Popovic. You can store samples, that is correct. 
Samples can be stored.
    Ms. Tulis. If I may, grids could miss very small areas of 
contamination where, if you're targeted, you would know to go 
there, so you could do a larger sample area.
    Dr. Popovic. One example is if people are coming into a 
room and you can actually use the grid and sample all of the 
areas, but if you sample the doorway, many times your chances 
of getting something there are probably better than just going 
all over the room because the concentration of the entrance 
of--in this case let's talk about bacteria--would be a smaller 
area that you can focus on.
    Mr. Halloran. So you said, the chances are. It strikes me 
either way it is a crap shoot here. Where are the odds better?
    Dr. Popovic. I'm sorry; I did not hear you.
    Mr. Halloran. Where are the odds better that you will find 
what you need to find to be able to make a conclusion with some 
confidence of what you have found or not found?
    Dr. Popovic. If you have epidemiological information, if 
you have assessment of the individual event, then your chances 
and the odds are better that you will get the results quicker 
with the targeted sampling.
    Mr. Halloran. But in the nonspecific event that Mr. Day 
referred to, when you have a threat or someone says I sent 
anthrax through there but no one is sick yet, what's your plan?
    Dr. Popovic. Well, if you look at the nonspecific event and 
you look at the Wallingford postal facility, the first two 
samplings were really not targeted, they were sampled as part 
of the sampling of facilities. But as pointed out, when you 
actually knew where to look for it and when you focus there, we 
found it. So there are advantages in different situations. And 
like I said, for this initial assessment, for making a public 
health decision, it is really critically important to do this 
quickly. One of the main reasons is because the period of time 
within which antimicrobial prophylaxis is going to be effective 
is short.
    Mr. Halloran. I understand. Miss Tulis, in your testimony 
you said, ``but there is no environmental laboratory network 
analogous to the Laboratory Response Network at this time.'' 
Should there be?
    Ms. Tulis. That's a loaded question. We believe we need to 
have more capability than we have at this point and we do not 
have that capability. We're trying to do our best to leverage 
existing resources. We do need more capacity than we have at 
this point.
    Mr. Halloran. But separate environmental from clinical?
    Ms. Tulis. It is a separate type of analysis; yes, it is.
    Mr. Halloran. In what way?
    Ms. Tulis. It's different concentrations. Your whole focus 
is different when you're looking in air versus water versus 
looking at blood or serum. You're not looking at metabolites. 
It's a very different set of processes that you use.
    Mr. Halloran. But in that process you'd still need to get 
to that point where you could go to the gold standard before 
you really know; or do you have some confidence in the decision 
before that?
    Ms. Tulis. Generally we come in, once detection has been 
made, to do the actual decontamination, and that's generally 
when we're using our environmental sampling.
    Mr. Halloran. There was another statement to the effect 
that validation, the concern of validation at the time anyway, 
was the lack of facilities that could do validation studies. Is 
there still that capacity constraint or can these studies be 
done now?
    Dr. Popovic. I can address that. A lot of work is happening 
already. I did mention in a lot more detail in my written 
testimony, CDC has an interagency agreement with the Dugway 
Proving Grounds where such a chamber for establishing and 
generating known concentration of spores is available; and it 
has been available and studies are actually taking place there.
    One of the things that is important is, like I said, you 
really need to use the real thing for a lot of these studies. 
So there are efforts and there are places where these studies 
now can be conducted and some of these studies are conducted. 
Some of the preliminary results from the studies conducted at 
Dugway will be available in December of this year.
    Mr. Halloran. Thank you.
    Mr. Shays. Let me, before letting this panel go, just ask 
the question of DOD. According to Dr. Kelley's testimony, 
``There is no comprehensive plan in place today for a response 
to a chemical terrorism event, and there are only three 
Department of Defense laboratories that could safely and 
effectively analyze these materials. Currently, public health 
laboratories are not privy to the analytical methods and check 
standards that have been developed by the Department of 
Defense, and thus have no ability to perform analysis in a 
validated and standardized method.''
    She goes on to say, ``In the absence of these materials, 
public health laboratories will be limited to clinical testing 
in the response to a chemical event and will not be able to 
assist in determining the substance involved in the 
contamination or its source.''
    Is that question pretty clear to you? Can you comment on 
that?
    Dr. Schafer. There are more than a couple of facilities 
capable of doing these procedures, but what I would like to do 
for the subcommittee is get back to you with the specific 
breakout of what those are, if that is OK.
    Mr. Shays. Tell me the impact of what she's saying, just so 
I make sure you understand and maybe help me understand what 
she's saying. What's the significance of her point?
    Dr. Schafer. I presume she's referring to perhaps a 
response time; that if we have to send all samples to a couple 
of laboratories, it would take a lot longer. That's probably 
the only reason.
    Mr. Shays. Aren't you saying something more than that, Dr. 
Kelley?
    Dr. Kelley. I am. The Laboratory Response Network that Dr. 
Popovic and others have talked about is primarily set out for 
biological agents. And we do have the capacity that recently 
has been put into the LRN to look for chemical WMD agents in 
clinical specimens, in human specimens.
    But one of the lessons we learned from anthrax is you don't 
have one without the other. If you have a human exposure, you 
want to know where that came from and is it cleaned up. So the 
environmental testing goes hand in hand with the clinical 
testing. And a lot of these things we've learned are local. 
They happen quickly and right within our jurisdictions. We 
currently do not have the ability to----
    Mr. Shays. ``We'' being?
    Dr. Kelley. The State public health labs, the LRN labs at 
the State and local level, to do any kind of testing for a 
chemical agent to assist with the investigation, or to be the 
companion piece to a human exposure.
    Mr. Shays. Do you want to followup?
    Dr. Schafer. If I could respond to that. We actually do 
have the ability in 14 laboratories to do this kind of work. 
And then there is an interagency effort that's ongoing to try 
to put some processes in place for chemical laboratory network 
just like we're doing with the other laboratory network.
    Mr. Shays. But the point is, it's not very clear how that 
system is working right now?
    Dr. Schafer. No. Again, Mr. Chairman, I would be happy to 
get back to you with the very specifics on that.
    Mr. Halloran. One final question. Mr. Day, the recent 
detections in this area were not at the USPS facilities; is 
that correct?
    Mr. Day. No, absolutely not. Since 2001, all of the false-
positive events that have occurred in this area have been at 
other agencies, not with the postal service.
    Mr. Halloran. And in the 107 facilities where you have 
these detection devices operating, describe for us--assure us, 
if you would, of the response plan: when the red light goes on 
at one of those facilities, when there is an initial positive 
what happens? Who calls who, who talks to who; does it look 
like an ordinary process or does it look like the keystone 
cops?
    Mr. Day. Let me start at a high level. What we did before 
we ever deployed the equipment was to develop a template for 
response. We clearly did not want to deploy the equipment and 
not have a plan for how we would respond. We worked with other 
Federal agencies, DHS, CDC, OSHA, EPA, even the FBI to get the 
law enforcement piece into it.
    That template is then taken to a local level or local 
management team working with their supervisory work force as 
well as the local union and management associations and the 
local first responders--police, fire, rescue and public 
health--are all brought in so that everyone knows who is 
notified and what the response will be.
    Mr. Halloran. So, unlike in the DOD situation, when a local 
first responder comes to a postal facility, he or she knows 
what that equipment is, knows what its capabilities and 
limitations are, knows what's inside that building.
    Mr. Day. Absolutely. And we need to know it as well, 
because as you go out to 282 local and State government 
entities, the capabilities are quite different. So we need to 
understand from our standpoint what the local first responder 
is capable of doing. So there is a nationally developed 
template that every site utilizes, and then we implement that 
on a local level with agreement with local first responders, so 
that when the alarm goes off we know who is notified and what 
the appropriate actions will be.
    Mr. Halloran. Finally, just one last chance. As I recall, 
each of your testimonies agreed with the GAO recommendation to 
pursue validation of the whole process, including possibility 
sampling; is that correct?
    Dr. Popovic. No.
    Dr. Kelley. No.
    Mr. Day. No.
    Mr. Shays. Are you satisfied? They said no.
    Mr. Halloran. That is their answer.
    Mr. Shays. It begs the question why. Ms. Norton. 
    Ms. Norton. Well, I must say, I had a different question 
for Mr. Day, but given Mr. Rhodes' testimony, I can understand 
about targeted sampling. Of course, I'm thinking also about 
places in the United States where it would be more difficult to 
know where the anthrax is, but I also recall from his testimony 
about the time it took, what has to be done, the followup, the 
days he talked about in Connecticut, weeks and finally months.
    And so to hear you all say, nevertheless targeted sampling 
is best, even given the false alarms and the time delay, 
probability testing has its drawbacks too. And I am aware that 
always we have to balance one against the other.
    I wonder. I know the targeted sampling is cheaper. I wonder 
if that has anything to do with it. I wonder if one has to be 
done to the exclusion of the other, and why we would only be 
validating for targeted sampling given the experience in 
Connecticut and elsewhere with delay and false alarms and the 
rest. And all of you going against the recommendation of the 
GAO just sort of leaves us in a real quandary as to--with the 
government all coming down on one side, and without your 
telling us why you would want to exclude probability sampling, 
which is the very recommendation of the GAO.
    Ms. Tulis. There's a lot of questions, so maybe we can 
tradeoff here as partners. I don't think we're saying we want 
to exclude probability sampling.
    Ms. Norton. I thought that was your response to the last 
question.
    Ms. Tulis. As a total, no. For example, when we went back 
to the Hart Building we did do statistical sampling before we 
had reoccupancy of letting people come back in.
    Ms. Norton. So you really had to do that, didn't you? You 
really had to do the probability sampling before you let people 
back into the Hart Building?
    Ms. Tulis. For reoccupancy, not for detection.
    Ms. Norton. We are all going to reoccupy these buildings, 
so why doesn't that tell you something? Why shouldn't both be 
done, Ms. Tulis?
    Ms. Tulis. Because the concern is that if you're not 
targeting where your areas of contamination are and you're 
using statistics, you can actually miss those areas. And we 
actually have some statistics, if you're interested, that we 
can give you on the effectiveness of targeting versus 
statistical.
    Ms. Norton. Somebody tell me why you cannot do both, as you 
did in Hart?
    Dr. Popovic. What I think we're saying is that both don't 
need to be done at the same time, that each one of them has a 
specific function in a different situation. And that is why we 
kind of all said no, because we feel that there is a need for 
these plans, which components need to be validated in which 
situations to really be made. And we're hopeful that this 
integrated consortium of networks of laboratories can actually 
provide guidance for that. We're thinking that the probability 
sampling can be a useful tool that can be added to targeted 
sampling, but we're not looking at it as a replacement for 
targeted sampling.
    Ms. Norton. I think we all need to give Mr. Rhodes the 
opportunity to respond to this, since it is all of you against 
one.
    Mr. Shays. Why the resistance?
    Ms. Norton. Mr. Rhodes, the chairman is asking why the 
resistance, do you think, to probability?
    Mr. Rhodes. I think that the point that keeps coming up 
relative to targeted is that there is an assumption that the 
people who walk into the facility actually know something.
    As a scientist, I know nothing until it's proven to me. The 
concern that I have about targeting--and I don't view them as 
being mutually exclusive. I would view targeting as being a 
weighted probability. And there was some discussion earlier 
about you can miss things with the grid. Yes, you can miss 
things if your grid is not fine enough. That's also a function 
of probabilistic analysis of space and air current and things 
like that.
    For example, you will note in a standard office, the 
computer screen is an attractive location. The neon lights are 
an attractive location. The ceiling tile is an attractive 
location. So is the carpet and things like that. So you may not 
want to stand exactly in the middle of the room and take a HEPA 
sample from the middle of the room. That can be a decision 
that's made.
    The point that we're making is that--and I think the reason 
that there is resistance is that probabilistic sampling is 
large sample set. There is no way for the current laboratory 
network to handle the load that would come off of that. It is 
not going to be as rapid as people would like.
    Now, my concern would be rapid is nice but getting the 
wrong answer faster and to a greater degree of precision is not 
useful to us. So I think that hearing a uniform statement of 
yes, we believe in validation; yes, we believe in this; yes, we 
believe in process; no, we don't believe in probabilistic; I 
think it's a function of dollars, network, capacity, it's all 
those things. And what you're probably--probably--hearing is 
that these are government professionals who are looking at it 
and saying, I can't get the money, I can't get the priority.
    I go back to my original statement about CBRN, the B is a 
little b, everything else is really important, even though we 
haven't encountered that. The thing we've encountered is a bio-
attack. Nobody set off a nuclear weapon. Nobody has come in and 
dumped radiological material with dynamite around it, like the 
Chechens did over in Russia; but the thing that has happened, 
people have to complain because they can't get the support on 
it. If we were taking it seriously we wouldn't be having this 
argument, because B would be a capital B and it would be as 
important as anything else.
    Mr. Shays. There is a gentleman behind. Were you sworn in 
and did you want to make any comment? Did you want to respond 
to something here? Identify yourself.
    Mr. Kiefer. My name is Max Kiefer with the CDC, National 
Institute for Occupational Safety and Health.
    Mr. Shays. Give your card to the transcriber when you 
leave, if you would, please.
    Mr. Kiefer. OK. I was very pleased to hear you mention that 
industrial hygiene as a basic tenet was very important. 
Targeted sampling, what is also known as worst-case sampling, 
is a fundamental basic industrial hygiene tenet that is used to 
help us target where we sample to try and rapidly get 
information for making public health assessments and decisions 
rapidly. That is what was done at Wallingford to get 
information on where the source of contamination was, as the 
doctor mentioned.
    It was targeted sampling that found the contamination in 
delivery bar code sorter No. 10, and not probabilistic 
sampling. Probabilistic sampling does have a role, and we 
certainly recognize that and want to work and we are doing work 
at CDC with Sandia National Laboratories to explore the use of 
probabilistic sampling for a characterization sampling, for 
remediation sampling, where it does have a very prominent role. 
But certainly, in the onset of an outbreak, it is very critical 
for us to really find out where the contamination is very 
quickly so we can target medical prophylaxis to people quickly, 
and we don't have the time to wait for 4 or 5 days to grid out 
a facility.
    And I'd like to correct something that was mentioned 
earlier. The high base sampling in Wallingford was not 
something that was uncovered due to probabilistic sampling or a 
different sampling strategy. That was found because--later in 
the course of routine maintenance on the part of the postal 
service. Because of the contamination found at DBCS No. 10, 
there was a concern that there might have been aerosolization, 
and there was examination of the upper structures above DBCS 
No. 10 because targeted sampling had been found there; and 
there was knowledge because of what had happened at Brentwood, 
that there may have been aerosolization there, and that's why 
the sampling was conducted there.
    Ms. Norton. Mr. Chairman, could I say what I think the 
problem is just as I derived it from your testimony? It sounds 
as if targeting sampling is fine if you--for example, if it's 
positive, you know something. I think what concerns us, as I 
understand, Mr. Rhodes' testimony, is that if it's negative, 
you're not sure if it is really negative. It sounds to me that 
if it's positive, before you let people back in there, it looks 
like you're going to do all the probability approaches anyway, 
so that you really do have a two-step process if in fact it is 
positive for anthrax.
    Where I think the problem comes is that if it is negative 
for anthrax, at least as I understand Mr. Rhodes, you do not 
know for sure it is negative because you have done no 
probability sampling. And some of our testimony, sir, about how 
things were found later, some of the testimony we've heard here 
about how they could be in the lights or other places, even 
though they are not where the target says you should go, would 
leave people who work there with the negative ``but perhaps 
there are spores in that facility'' because you have not done 
probability sampling. If I'm wrong on that I'd be pleased to 
hear it.
    Dr. Popovic. I would just like to comment that it is not 
just the sampling results that, in the initial phase of an 
investigation, are weighed in to make a decision whether to 
close the facility or whether to provide antimicrobial 
prophylaxis, and there's other factors that play into place and 
those decisions again have to be made.
    Ms. Norton. Like what?
    Dr. Popovic. There has to be epidemiological evidence. If 
you actually, for example, know that there were cases 
associated with postal facilities and you have had sick people 
in one facility and you have them at the other, you don't 
necessarily have to wait 2 or 3 days or how long it takes. You 
can make those decisions. The kinds of exposure that people 
had. There is a lot of these epidemiologic background 
information that really plays into place. You can put people on 
prophylaxis and then come back after a couple of days and 
decide whether to continue it or not. So those are the 
instances where time really is of essence.
    Ms. Norton. And you would have done probability sampling by 
that time.
    Again, you all have not convinced me at least that this is 
not a two-step process. And if you worked in that facility, I 
bet you would want it to be a two-step process. And all I can 
tell you is if it was a two-step process in the Senate of the 
United States, it better be a two-step process everywhere else. 
We're not going to have disparate treatment. That was one of 
the great, huge, terrible lessons that came out of the anthrax 
scare here. People believed, and believe to this day, that 
Congress was treated differently. If you're going to do that, 
you're going to have to develop somehow protocol to do it all.
    Mr. Chairman, I never did get to ask my question because 
your staff asked such a good question.
    Mr. Shays. You will get your chance. But before the 
transcriber leaves, I was just thinking that this is like my 
worst nightmare in college when I was taking statistics and 
probability, and I was watching the transcriber try to 
concentrate as we talked about this, and I was hoping that she 
would stay awake during the whole time here, just given my own 
record in college during that time.
    At any rate, we get to stay awake because we get to ask 
questions. That is one reason we get to ask questions.
    Ms. Norton. And you have to stay awake because you have to 
answer them.
    I have one last question for the panel today. In fairness, 
I think I should ask this question of you, because I read Mr. 
Burrus's testimony. He is on the next panel. You know how 
concerned I am that V Street, the No. 1 target for anybody 
wanting to use anthrax, does not have the basic bioterrorism 
equipment that 107 facilities somehow have.
    Mr. Chairman, while you were gone, I asked him to get us a 
priority schedule and get you a priority schedule in the next 
30 days.
    Mr. Shays. Yes, we would like that, why would it take 30 
days?
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. Day. Mr. Chairman, I can get you the schedule tomorrow.
    Mr. Shays. If you would just give it to our committee so we 
can make sure that Ms. Norton gets it.
    Ms. Norton. Now, if you don't have the biodetection 
equipment in V Street, even though V Street serves the 
Congress, the White House--the one place that the terrorists--
the Federal agencies, the places where the terrorists want to 
get. OK.
    But I need to hear, because I am going to ask Mr. Burrus 
this, and I looked at his testimony, and he doesn't have an 
answer in his testimony, because I suppose it isn't in his 
control. But he says that he recently visited V Street.
    So not only don't we have equipment in V Street, but he 
says there's an oscillating fan in V Street, and that is 
precisely what the first thing that the Postal Service did when 
the Brentwood anthrax scare occurred was to say, shut down the 
fan. I want to know why--we already know you don't have--and 
you haven't given me any reason for why they don't have--
biodetection in V Street.
    But I want to know why there is a fan there, when our 
experience just a few blocks away in Brentwood says that fans 
will distribute the anthrax so you shouldn't have a fan going 
where there is no equipment, where you can't tell where there 
might be anthrax there at all?
    Mr. Day. The term V Street actually gets used in a generic 
way. There are two facilities over there. The facility that 
processes mail that has the automated equipment in it does not 
have any fans. That's concurrent and follows the national 
policy. We have a national policy, ever since the events of 
2001, that our automated processing equipment--you are not 
allowed to have fans that direct air flow toward what we call 
the feed deck where the most likely release would take place, 
and that's true in V Street. It's not in place near any of that 
automated equipment.
    It's my understanding at the facility across the street, 
where the trays are simply prepared to go to the irradiation 
facility which has no air conditioning, has some fans in there. 
But, again, that is fully in keeping with the national policy. 
You will find that true throughout the Postal Service, that 
areas that do not have automated processing equipment have 
fans; it is true throughout the Postal Service.
    Initially in 2001, we shut down all the fans, and the 
request from many of our employees was to try to relax that 
policy. And the policy that's remained intact since then is we 
do not have fans that are directed at the automated equipment. 
That is the case at V Street as well.
    Ms. Norton. So the fans are directed at what at V Street? 
There are fans at V Street.
    Mr. Day. Across the street where the mail is prepared.
    Ms. Norton. There are two places at V Street. One has a 
fan, and one does not. And the one that does have the fan, what 
happens in the V Street facility that does have a fan?
    Mr. Day. That's what we call our preparation area. They 
simply are transferring trays of letters, tubs of flats to go 
into containers to be sent up to the irradiation facility in 
Bridgeport. You have no individual distribution of the mail; 
it's not opened up. It's just sent up prepared to go to the 
facility. So that's deemed a much lower risk, and we see that 
as reasonable that in those--those employees be allowed to have 
those fans. Again, consistent with national policy.
    Mr. Shays. Bridgeport?
    Mr. Day. New Jersey.
    Mr. Shays. Thank you, I live in Bridgeport, CT and I just 
wanted to make sure. All right.
    All right, is there any response to a question or a comment 
on the second tier behind the speakers that have been 
responding. Any of those of you who stood up that want to set 
the record straight or want to correct your boss and lose your 
job or want to amplify what your boss said. I am serious. Just 
identify yourself, make sure you leave a card with the 
transcriber.
    Dr. Sharma. Yes. My name is Sushil Sharma, and I work for 
Keith Rhodes. I want to clarify and set the record straight, 
with respect to how we articulate the role of the probability 
versus the targeted sampling. What we are saying is that, 
eventually, no matter what, whether you find a positive or a 
negative, you have to do probability sampling.
    What do I mean by that? If you have a positive, in order 
for EPA to do the cleanup, they have to do a probability 
sampling. If you don't have a positive, you have to offer some 
assurance to the public that, if anthrax is present, it is 
below certain detection limits that our meter could not find. 
Now, what we said in our report is that, at the outset, you 
decide how many samples and from where you need to collect in 
order to have that confidence level.
    Once you have done that, then we are not saying, don't use 
your head or judgment. Of course you should. You should first 
go to those places which you think would be most likely to, 
under the grand plan. If you don't find there, continue 
outwards. So we are not saying one versus the other; we think 
it is a good blending. There is a role for professional 
judgment, but there are also occasions when judgment does not 
work, as was the case in the Wallingford facilities.
    On the one hand, we hear that time is very critical for 
public health intervention. But in the case of Wallingford, it 
wasn't until 3, 4 weeks that anthrax was detected. So there is 
a chance, in the case of negative results when the source of 
contamination is not definitive, that you should have--you 
should work within the grand plan of probability sampling. 
Thank you.
    Mr. Shays. Thank you. I was looking at body language with 
you, Dr. Schafer and Ms. Tulis, as he was talking. Do you 
disagree with what he said? I mean, it's almost like I was 
reading. I will tell you what I was thinking: Easy for him to 
say, but he doesn't have to do it. OK. Was I reading something 
incorrect in that?
    Ms. Tulis. What I was doing is conferring with our sampling 
expert to verify the information. He can share some information 
with you if you would like to hear that further.
    Mr. Shays. Was he sworn in?
    Ms. Tulis. Yes, he was.
    Mr. Shays. Identify yourself and leave a card.
    Mr. Durno. Sir. My name is Mark Durno. I am a Federal on-
scene coordinator with the U.S. Environmental Protection 
Agency.
    Basically, with designing sampling approaches to attack any 
kind of contaminant, be it biological, chemical or whatever, we 
establish a hypothesis, or a set of objectives. And then our 
second step is to identify a sample space from which to collect 
these samples. And in the case of the Postal Service 
facilities, the sample space was the buildings where the 
letters originally passed through down to the buildings to 
which cross-contaminated mail may have passed.
    So the initial sample space, including the mail that had 
then passed down through the subsequent Postal Service 
facilities, contained a large number of samples. And if 
statistics were done on this process, I think you would see 
that the probability was very good that this sampling approach 
was adequate.
    In addition to that, utilizing targeted or judgmental 
techniques, we have a much, much greater confidence in the 
results that we see from that. So I will give you a case in 
point.
    At the Hart Building, for which we designed the sampling 
strategies for characterization, we established both a grid 
pattern over the entire Hart Building. We also instituted a 
judgmental or targeted sampling approach. Using those 
techniques, 23 locations were found to be contaminated or 
positive with Bacillus anthracis; 22 of those 23 locations were 
found through judgmental or targeted technique. One location 
was found by this grid sampling approach, and it just gives 
more credibility to the idea that this judgmental approach is 
one of the most important pieces of designing an appropriate 
data quality objective-based sampling plan.
    Mr. Shays. Sounds like nonhuman profiling.
    Any other comments? We are going to end this panel soon. We 
are going to begin the evening portion of our program.
    Dr. Popovic. May I make one comment?
    Mr. Shays. Yes.
    Dr. Popovic. I was thinking to put it in terms of human 
beings and live people. If you come to your physician, and you 
say I have certain symptoms and whatever, the physician can 
draw probably 1,000 different lab tests, and we will 
eventually, after 3 months, when those come from all of the 
laboratories pinpointed, but the physician also talks to you, 
and he targeted those after your symptoms.
    So if you have symptoms of knee ache, he is not necessarily 
going to do a brain biopsy. I am exaggerating of course of. But 
I think it's really important for us to emphasize that all 
kinds of information that you make when you make decisions 
about human beings, you actually make when you work in a 
setting where a bacteria like anthrax or other bacteria are 
spread all over the place. I just wanted to draw that 
comparison. I hope it's helpful.
    Dr. Schafer. Actually, if I could jump on that, I think 
this is actually the big issue. There are no silver bullets 
today.
    Mr. Shays. Right.
    Dr. Schafer. And I think that's the bottom line. We all 
know the various sampling techniques, we know how to use them 
and how to employ them. One is not necessarily better than the 
other. And at the end of the day, one has to make the decision 
as to what is the impact of whatever we find on a human being. 
So the goal here is, no matter what we do, human judgment has 
to come into the decision process. The end point is we are all 
here to try to protect our people. That's all I want to say.
    Mr. Shays. Thank you. Any other comments from anyone?
    Ms. Norton. Mr. Chairman. Could I just put----
    Mr. Shays. Sure.
    Ms. Norton. The chairman talked about our evening panel. 
You can see that this is a chairman that doesn't have show 
hearings. We really learn something, and the only way we can 
learn it is to have an exchange. Very few hearings I go to 
where the chairman says, ``and does anybody else in the room 
have anything he wants to say?'' But it does help Members of 
Congress to learn what we ought to do.
    Mr. Day, I just want to be clear what I heard, because it 
seems to me we have gone from bad to worse. We already have 
established that V Street, where all Federal mail and all White 
House mail comes, does not have the biodetection equipment. I 
asked you a question about fans.
    As I hear you, you said that in the particular facility we 
are talking about, there was a fan, but it was really not the 
facility we ought to be worried about, because this is a 
facility where workers are dealing with the mail before it has 
been irradiated and before it is sent to New Jersey for 
irradiation. What that means--again, I want to hear your 
explanation, because maybe I have it wrong again--is that these 
workers are working where there is no air conditioning. So in 
order for them to work, they have to say, will somebody turn on 
the fan?
    Well, if you turn on the fan and they are handling mail 
that has not been irradiated, as, for example, occurred when 
the mail came to the Senate, then, of course, you are really 
handling dangerous mail. Yes, it hasn't been opened, but as 
with the Senate mail, some anthrax could easily come through 
the openings in the envelope. And there you are with the fan on 
with unirradiated mail in a non-air-conditioned building, and I 
am supposed to feel that these V Street workers are really OK. 
I want you to explain why that is not a situation. If anything, 
that is even worse than the situation across the street where 
at least they are working with irradiated mail.
    Mr. Day. Again, that's consistent with our national policy. 
I would gladly go back.
    Ms. Norton. Excuse me, what is our national policy then?
    Mr. Day. Our national policy on fans that we implemented 
either late 2001 or early 2002 was to not direct fans at the 
automated equipment where the pinching occurs with the mail 
that causes it--if a biological threat were in there--to come 
out. Mail in trays, mail in tubs, is deemed a much, much lower 
risk. In just picking up a tray, there is nothing about the 
activity that is going to dislodge it.
    Ms. Norton. Well, of course, this is the same facility 
through which the anthrax mail came, through these three 
facilities.
    Mr. Day. Yes, ma'am. I will gladly go back. I will work 
with the local union. In a large extent, again, in 2001, we 
shut off all fans. That was our initial reaction. The feedback 
we got from employees was, is there a reasonable go-between 
where instead of all fans, what is reasonable in terms of risk?
    Ms. Norton. You are darn right. And the goal is, get some 
air conditioning in that building where government mail is 
handled and where anthrax is likely to occur, to be 
distributed.
    Mr. Day. I can find out about air conditioning, but that 
has an air flow associated with it as well. That does not mean, 
if there's a risk there, that it's eliminated.
    Ms. Norton. You have--across the street in V Street and 
quote, national policy, I take it does not pertain to air 
conditioning. Look, Mr. Day, you know, I am willing to go with 
the flow. I know we are trying to get this together, but I am 
really not willing to hear excuses about Government mail, White 
House mail, 4 years after September 11th--I'm sorry, after the 
anthrax scare--does seem to me that everything should be done 
in that facility to protect workers, because those are the 
facilities where people died, where workers are most fearful.
    And one of the things that I am asking you to do, whatever 
you do with the national policy everywhere else, is to remember 
that V Street and Brentwood are indeed where the deaths 
occurred and are indeed where the targeted mail for any, any 
terrorist should be if he is really seeking to do harm to us.
    And I am asking that the Post Office this summer take steps 
to air condition that facility. I am asking that V Street be 
put at the top of whatever lists you have for insulation of 
biodetection system. I am particularly concerned about these 
workers, because they are handling irradiated mail possibly 
with a fan.
    Thank you very much, Mr. Chairman.
    Mr. Shays. Thank you.
    Ms. Norton. Could I get your promise on that, Mr. Day? 
Excuse me.
    Mr. Day. The equipment for biodetection will be in there. I 
will find out the specifics about putting air conditioning in 
the other building. And, again, the policy is about fans that 
are directed at those pinch points. That is in effect in V 
Street. We will continue to do that.
    Ms. Norton. We just ask you to use your common sense when 
it comes to the kind of facility you are dealing with, and we 
are dealing with a facility that will most likely be the 
subject of an anthrax attack. If, quote, the national policy 
doesn't fit as well then please take steps to protect those who 
are in that facility.
    Mr. Shays. I think what Ms. Norton is basically saying is 
that most Members of Congress would believe that this facility 
more than any other facility is a targeted facility and should 
be highest on the list. And that's not a reflection of wanting 
to protect Members of Congress; it's talking about your postal 
employees. I think you know it. I am just going to say it that 
way.
    Mr. Day. We understand and concur.
    Mr. Shays. I think you do. I think all of you have been 
excellent witnesses, and we thank all of you, and we thank you 
for your patience. Is there anything that any of you wish we 
had asked that we didn't ask that you would like to put on the 
record?
    I honestly learned more from that last question. I mean, we 
had a hearing on terrorism. I asked at the end of a panel and a 
noted doctor of a major medical magazine before September 11th 
said, ``I want to share my greatest fear.'' He said his 
greatest fear is that a small group of dedicated scientists 
will create an altered biomedical agent that will wipe out 
humanity as we know it. This was by someone who was a 
mainstream doctor. That got our attention. That was before 
September 11th, and there were no cameras, and there were no 
print media.
    So I learned a lot from that last question, is there 
anything we need to put on record that wasn't? And it also 
enables me to say that if you leave here saying we should have 
asked a question we didn't, it's now on your shoulders because 
I am saying you can answer it. Any question we should have 
asked and any that you should have answered?
    OK. Thank you so much. You have been a wonderful panel. 
Very patient. We are very grateful to you. We appreciate your 
dedication to your work and to your country. We particularly 
thank the lady from Connecticut.
    And I am happy there's a Bridgeport, NJ.
    Our next panel is Mr. William Burrus, president, American 
Postal Workers Union, AFL-CIO; Dr. Linda D. Stetzenbach, 
director of Microbiology Division, Harry Reid Center for 
Environmental Studies, University of Nevada, Las Vegas; Chief 
James A. Schwartz, chief, Arlington County Fire Department; 
Chief Michael P. Neuhard, chief, Fairfax Fire and Rescue 
Department; Mr. Philip Schaenman, president, Tridata Division 
of System Planning Corp.; and Mr. John Jester, director, 
Pentagon Force Protection Agency, Department of Defense.
    We will ask you to stay standing, actually, and we are 
going to swear you all in. So when you get by your seat, we 
will swear you all in. Thank you all for your patience.
    [Witnesses sworn.]
    Mr. Shays. I would note for the record our witnesses have 
responded in the affirmative.
    Again, we will go with you, Mr. Burrus. We are really going 
to try to be as close to 5 minutes as you can. I do appreciate 
this panel's patience. Let me say the advantage of the second 
panel is you have heard the questions of the first panel, and 
there may be things you want to depart from your opening 
statement, if you feel it's been covered, and speak that way. 
But your full statement will be in the record.
    Mr. Burrus.

   STATEMENTS OF WILLIAM BURRUS, PRESIDENT, AMERICAN POSTAL 
    WORKERS UNION, AFL-CIO; LINDA D. STETZENBACH, DIRECTOR, 
  MICROBIOLOGY DIVISION, HARRY REID CENTER FOR ENVIRONMENTAL 
 STUDIES, UNIVERSITY OF NEVADA, LAS VEGAS; JAMES H. SCHWARTZ, 
 CHIEF, ARLINGTON COUNTY FIRE DEPARTMENT; MICHAEL P. NEUHARD, 
   CHIEF, FAIRFAX COUNTY FIRE AND RESCUE DEPARTMENT; PHILIP 
   SCHAENMAN, PRESIDENT, TRIDATA DIVISION OF SYSTEM PLANNING 
  CORP.; AND JOHN JESTER, DIRECTOR, PENTAGON FORCE PROTECTION 
                 AGENCY, DEPARTMENT OF DEFENSE

                  STATEMENT OF WILLIAM BURRUS

    Mr. Burrus. Good afternoon. Mr. Chairman, I would like to 
thank you and the subcommittee members for the opportunity to 
address the important issues of this hearing. As requested, my 
testimony will concentrate on the GAO draft report about the 
anthrax detection methods as well as the impact of the events 
surrounding the recent anthrax event at the Pentagon mail 
facilities. The terrible events of September and October 2001 
have had a lasting effect on our country, taking the lives and 
shattering our citizens' security. Much as we evaluate what can 
be done to prevent such tragedies in the future, we must apply 
the lessons learned. The fears postal workers harbor about the 
accuracy of anthrax testing remain, and they will not be 
overcome until a comprehensive plan of protection and detection 
is put in place.
    I preface these remarks by stating my belief that in the 
immediate aftermath of the attack, the U.S. Postal Service 
acted appropriately based on the limited scientific knowledge 
available. Postal management relied upon the advice of public 
health officials, and the unions were informed that critical 
decisions were made. And when presented with the evidence that 
postal employees had been exposed, managers did not hesitate to 
close postal facilities. Mistakes were made, but they were 
honest mistakes. And hopefully, we have learned from them.
    However, in the weeks and months that followed, serious 
errors were made, errors that could have been avoided. 
Considerable resources had been expended to study anthrax 
detection methods since the October 21, 2001 incident. The GAO 
draft report presents a detailed analysis that reflects many of 
the concerns that we have raised since 2001.
    Following the 2001 attack, the Postal Service initiated 
testing protocol to evaluate all mail processing facilities. 
The facilities tested negative, but the experience in 
Wallingford called into question the accuracy of the sampling 
and the testing protocol. Subsequent tests using a different 
method, conducted after the death of an elderly woman, revealed 
the presence of anthrax.
    In response to GAO recommendations to reassess postal 
facilities that previously tested negative, the Postal Service 
asserted that, because there had been no accidental incidents--
additional incidents of anthrax-related illnesses or death, 
there was little or no risk to postal workers or the public.
    Despite our requests, the Postal Service declined to 
conduct future tests. We strongly disagree with the rationale 
and the decision not to conduct additional tests. No one can 
reasonably suggest that our members should serve as the 
``canaries in the coal mines'' of the years past.
    The absence of illness or death cannot serve as proof that 
all is well. The buildings and their contents must be tested 
and declared free of agents of bioterrorism. APWU concurs with 
the GAO report that all testing should utilize the best-known 
practices, and the methods that will provide results that first 
and foremost is to protect the employees and the public. In 
those circumstances where nonvalidated processes have been 
used, we must ask: Are our postal facilities really safe, or 
could improper sampling and testing methods have missed 
anthrax? Could unsuspecting employees be exposed at some future 
date? While the GAO report does not answer these questions, it 
brings them to the forefront for a thorough examination.
    In 2001, the Postal Service was forced to make an emergency 
decision regarding the type of samplings to be used in postal 
facilities, whether to dry swab or wet swab. Despite the fact 
that the scientific community expressed concerns about the 
efficiency of the dry swab method, that was the method chosen. 
This choice was accepted by postal public health officials.
    However, it was known at the time--and GAO has now 
confirmed--that dry swab sampling is less efficient than the 
wet swab method. The USPS advanced a strategy of targeted 
sampling that proscribed testing the areas that were most 
likely to be contaminated. This approach, known as ``following 
the mail and monitoring employees,'' neglects the use of 
statistical probability. The APWU and GAO reject the premise 
that following the mail and monitoring employees can serve as a 
means of determining contamination. This is unacceptable and 
should not be permitted by the Congress of the United States.
    Recent anthrax-related events at the Pentagon mail rooms 
demonstrate a number of efficiencies in communication. They 
highlight the absence of standardized and validated testing 
protocols and expose the lack of coordination in public 
messages.
    These most recent events serve as the poster child for 
inefficiency. Many accounts of the Pentagon incident indicate 
that the initial sampling was done March 10th and that a 
positive result was announced March 14th. Reports also specify 
that the positive result was confirmed on March 15th. That 
means there was a lapse of 5 days between the initial sampling 
and the confirmation results.
    If it had been a true positive, postal workers would have 
been in grave danger. Had a biohazard been present, postal 
workers would have been exposed for 8 or 9 days before the 
results of the confirmation test were received. We know from 
our experience at Brentwood that waiting even a few days to act 
can result in death.
    Other major concerns arise from the most recent incident as 
well. First, timely notification was not provided by the 
Department of Defense to the Postal Service. Second, a 
certified laboratory was not selected. Third, reporting the 
results took too long, and as a result, postal workers were 
potentially at risk. It is fortunate that the positive results 
were false, but these failures cannot be overlooked.
    Mr. Shays. Mr. Burrus, you have gone now 6\1/2\ minutes, so 
I need you to wrap up.
    Mr. Burrus. I will. Of major concern is the situation at V 
Street that has been discussed at some length already. I will 
defer to questions in more depth about this issue, but the use 
of fans at V Street, sir, are not for the comfort of the 
employees. Those fans are used for the exhaust of the gases 
that are generated by the irradiation of the mail. So I would 
hope we would get into that subject in a little more depth as 
we go to the questions.
    Mr. Shays. Sure.
    Mr. Burrus. Let me conclude, I endorse in large part the 
inclusion of the GAO draft report and hope you will find them 
useful in initiating a comprehensive and effective program. 
Thank you for the opportunity to testify, and I will be pleased 
to answer any questions you may have.
    [The prepared statement of Mr. Burrus follows:]



<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Shays. Thank you for your very helpful statement.
    Dr. Stetzenbach.

               STATEMENT OF LINDA D. STETZENBACH

    Dr. Stetzenbach. Good afternoon. I am Linda Stetzenbach, 
the Director of the Microbiology Division for the Harry Reid 
Center for Environmental Studies, University of Nevada, Las 
Vegas, where I have been conducting bioaerosol research for the 
last 17 years.
    I would like to acknowledge Congressman Porter's attendance 
earlier today, and I know he is very concerned about these 
issues as well.
    Mr. Shays. That is Harry Reid of----
    Dr. Stetzenbach. The Harry Reid, got us the Senate 
appropriation to build the building where our research center 
is located, yes, sir. The university names their buildings 
after the people that donate the money.
    In 1994, I presented results of our laboratory's work on 
the dispersal of microorganisms into the air at a scientific 
conference on chemical and biological defense at the Aberdeen 
Proving Ground in Aberdeen, MD. During a break after my 
presentation, I was told by one of the attendees that while my 
data was interesting, anthrax spores would not redistribute 
into the air once they had settled, and therefore, my data had 
very little interest for biodefense. This is a----
    Mr. Shays. How long ago was that?
    Dr. Stetzenbach. That was in 1994, sir.
    Mr. Shays. Interesting.
    Dr. Stetzenbach. Later, in June 2001, we published some 
data using an anthrax simulate in a room-sized environmental 
chamber that we have had at UNLV since about 1991. 
Unfortunately, the events in the fall of 2001 demonstrated that 
dispersal of infectious spores does occur and re-aerosolization 
does occur. But our earlier data basically was ignored.
    Since 2001, it's also acknowledged that monitoring of 
biothreat agents is problematic due to the lack of 
standardization and analysis protocols. You heard that with the 
earlier panel.
    For example, there are a variety of sampling methods that 
have been used by various Government agencies when monitoring 
for biothreat agents, but the likelihood of success using these 
methods has not been established. And there are currently no 
standardized environmental sampling methods for first 
responders, public health officials, law enforcement agencies 
and other agencies.
    I think it's acknowledged, and you heard earlier, that 
surface sampling is very useful for determining the presence 
and concentration of a contaminant, the location where it may 
have been released, the extent of contamination, forensics and 
the effect of remediation.
    But while swab sampling has a time-honored tradition in the 
hospital setting from everything from sore throats to wounds, 
the usefulness of the swab sampling method for sampling 
buildings is very limited.
    One disadvantage is that a large number of samples are 
generated. For example, tens of thousands of swab samples were 
collected as a result of the anthrax attacks. And the 
laboratory response network was simply overwhelmed.
    Handling of swabs by emergency personnel responding to an 
incident is also extremely difficult. Results in our laboratory 
that we published in 2004 evaluated a Government-developed 
large area surface sampling method, it's called the BiSKit. It 
demonstrated the ability to rapidly sample large areas, which 
translates into better detection and fewer samples. But the 
swab and the BiSKit are the only two surface sampling methods 
that have undergone validation testing. Validation testing and 
the establishment of all protocols used to determine if a 
biothreat exists in a building is critical.
    Therefore, research should be conducted to evaluate 
currently available and newly developing devices for biological 
sampling of surfaces. This would provide information on their 
efficiency of collection and the limits of their capability. 
You heard that earlier as well.
    This information can then be used to determine what device 
is optimal for what biothreat scenario. An integral part of 
this research is developing analytical capability through the 
application of molecular biology methods that enhance the 
enumeration and characterization of biothreat agents. And 
molecular biology methods are rapid, sensitive and specific. 
Unfortunately, there are interferences when you use these 
methods with environmental samples. They are not clinical 
samples. They are environmental samples. And simple background 
dust can give you a false negative.
    Therefore, research is needed to minimize the interferences 
and to optimize analysis of samples from surfaces from the 
earth and from the air. Also we need to develop standard 
operating procedures from optimal detection and measurement of 
biological contaminants. Comprehensive research on these topics 
would enhance sampling capabilities for the purpose of 
identification or attribution, while allowing inter-laboratory 
and interagency comparisons.
    There's also serious concerns with assessing the results of 
bio-aerosol monitoring. We have been focusing today on 
surfaces, but indoor and outdoor surfaces where air samples are 
taken is a very real issue. The purposeful dissemination of 
biothreat agents in enclosed public environments and outdoor 
facilities that attract the public would potentially result in 
the exposure of large numbers of individuals.
    Therefore, programs utilizing routine monitoring of 
aerosols has been initiated. Unfortunately, little information 
is available on the natural background populations of these 
organisms that are now called biothreat agents. This lack of 
data has resulted in false positive results with the biowatch 
system that's currently deployed in selected cities in the 
United States. A comprehensive survey to determine the levels 
of naturally occurring biothreat agents would assist 
decisionmakers when interpreting positive results.
    In addition, naturally occurring organisms in the air and 
on surfaces can affect the ability to discriminate background 
aerosols from biocontaminants. While some data has been 
published, the naturally occurring organisms in the types of 
facilities that may be sites of a purposeful biocontaminant 
release, such as sports arenas, convention facilities and mass 
transit, have not been adequately characterized.
    The research that I have outlined for you today is vital to 
provide rapid and accurate information to decisionmakers that 
are charged with protecting the public health and security of 
our citizens.
    But in closing, I wish to emphasize that universities are 
an underutilized research resource for much of this research. 
University scientists have a track record of high quality 
research on these topics, and they are cost-effective.
    In addition, they do not have a vested interest in any 
method, in any particular protocol, and they can develop and 
evaluate protocols with an unbiased perspective.
    In closing, I would like to thank you for allowing me to 
come today, and I would be happy to answer any questions.
    [The prepared statement of Dr. Stetzenbach follows:]



<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Shays. It is pretty extraordinary that you would have 
been told in 1994 that once they settled, you didn't need to 
worry about the anthrax spores.
    Dr. Stetzenbach. Pardon me. I didn't hear you.
    Mr. Shays. It is pretty amazing to me that you were told, 
once anthrax spores had settled, they would not be a recurring 
problem. I mean, that's basically what you said, or did I----
    Dr. Stetzenbach. That was the basic answer, yes, sir. And I 
said, ``did you see my data,'' and he said, basically, ``don't 
confuse me with the facts.'' It was unfortunate.
    Mr. Shays. That was 4 years before--I mean 10 years earlier 
from now.
    Dr. Stetzenbach. That was years earlier, yes, sir.
    Mr. Shays. OK.
    Chief Schwartz, welcome.

                 STATEMENT OF JAMES H. SCHWARTZ

    Chief Schwartz. Thank you, Mr. Chairman, members of the 
subcommittee.
    In addition to my responsibilities as a fire chief in 
Arlington County, I am also a member of the Interagency Board 
for Equipment Standardization where I co-chair the Detection 
and Decontamination Subgroup. And I am also a member of the 
International Association of Fire Chiefs Committee on Terrorism 
and Homeland Security. These issues have great relevance for 
both of those groups.
    I appreciate the opportunity to provide testimony on the 
issue of valid test methods for Bacillus anthracis today. This 
is a significant issue for Arlington County, which like most 
local governments, provide the public safety and public health 
response for our residents, visitors and businesses.
    In Arlington, our services also protect the Pentagon and 
dozens of Federal agencies that reside in the over 60 percent 
of the county's available commercial office space, office space 
that I would observe is greater than what you will find in 
Baltimore, Seattle or San Francisco.
    Arlington bears a significant responsibility for response 
to any incident that is perceived to have involved anthrax or 
other biological agents. I want to begin by complimenting the 
subcommittee on its charge to GAO regarding the assessment of 
postal facility testing and the validity of detection 
activities. This is a critical issue for local governments who, 
again, must manage the consequences of a local biological 
incident. But I would observe, it is not just postal facilities 
that we need to concentrate on.
    Given our experience to date, I would also observe that 
there is no crisis that requires more accurate and timely 
public information than a public health crisis. Assuring the 
public, especially those who have been potentially exposed to a 
biological agent, is of the highest importance and makes 
reliable test results from a certified laboratory essential.
    The decisions that result from testing, including the 
possible distribution of powerful antibiotics as prophylaxis, 
poses different but no less significant kinds of risk for the 
public.
    I want to say that I agree with the recommendations of the 
GAO draft report which was provided to us. While the report 
describes significant hurdles to effective testing, it is 
imperative that methods of detecting anthrax and other 
biological hazards be developed so that appropriate decisions 
that are in the best interests of public health can be made in 
a timely way.
    Special emphasis should also be put on environmental 
sampling methods. Detection methods have a considerable effect 
on the actions of local government. And as such, I want to take 
an opportunity to discuss briefly the incident at the Pentagon 
on March 14th, which I know you will be getting more testimony 
on in just a few moments. This incident was in many ways a 
model of inter-governmental cooperation.
    Arlington County was notified of a possible test result at 
the Pentagon's remote delivery facility. Upon arrival at the 
facility, responders from Arlington learned that a swab taken 
from a filter 3 days earlier had tested positive for BA at a 
contract laboratory. Arlington committed its fire, police, 
public health and emergency management departments to support 
the Pentagon.
    Because of our close working relationships with the 
Pentagon Force Protection Agency, we have a great deal of 
knowledge about their procedures. Numerous exercises over the 
last 7 years have helped to provide Arlington and the Pentagon 
Force Protection Agency with a better development system of 
planning and response.
    In general, the response was good. The Pentagon Force 
Protection Agency notified Arlington as soon as they recognized 
a problem. And our first responders notified our Office of 
Emergency Management as soon as they arrived on the scene and 
assessed the situation.
    Our Office of Emergency Management then made internal 
notifications and to other local governments in the region and 
the State. And I want to digress from my written testimony for 
just a moment here, because this morning, in hearing reports 
regarding the failure, the suggested failure of notification of 
the State in this particular incident, I believe that 
conclusion is largely flawed. Information went directly to the 
State from Arlington County's Office of Emergency Management as 
per protocols established by the Department of Homeland 
Security, soon after recognition that this was in fact an 
event, and our Office of Emergency Management took the next 
step by notifying the D.C. Emergency Management Agency to let 
them know what was going on as well.
    As always, there are lessons to be learned from incidents 
such as this. While there are parts of the March 14th Pentagon 
response that could be improved upon, we are far beyond where 
we were 5 years ago. And I am confident that the after-action 
reports will bear that out. However, one of the salient points 
with this incident that the subcommittee focuses on today is 
valid detection methods.
    Can we rely on the results we get from environmental 
sampling and subsequent laboratory analysis? Experts far 
smarter than I, I guess as you mentioned earlier, Mr. Chairman, 
smart science, will have to work out the answers to the 
challenges posed by the GAO report. But as a recipient of 
information derived from these practices, information on which 
critical public health and emergency management decisions can 
be made, I can say that the issue must be pursued.
    In addition to the importance of valid testing methods of 
the postal facilities, I want to draw the subcommittee's 
attention to the importance of providing reliable screening 
technology for first responders.
    The issue of testing for biological hazards has been a 
topic before the interagency board for over 3 years. First 
responders must have reliable biological detection 
capabilities. And I would ask that the subcommittee do 
everything it can to encourage the development of enhanced 
field-deployable technologies.
    There are those in the Federal Government who would dismiss 
the need for this kind of capability in the hands of first 
responders. They insist that local first responders cannot be 
properly trained to use handheld assays or PCR technology and 
that responders should rely solely on the LRN to provide 
definitive results regarding the identification of suspicious 
substances. As my friend A.D. Vickery from Seattle Fire 
Department is fond of saying, this is the same argument we 
heard years ago when we were told that doctors only should be 
doing CPR.
    The reality is that, on a frequent basis, first responders 
are called to investigate suspicious substances. This is 
especially true when the media is reporting a situation such as 
the one that occurred in Arlington and Fairfax several weeks 
ago. Simply relying on the LRN for test results is an 
ineffective way to provide timely advice and guidance to people 
who believe that they have been exposed to a biological agent.
    First responders understand that there are more 
sophisticated field testing methods, that sophisticated field 
testing methods only yield presumptive results. We are not 
making clinical decisions with these methodologies but tactical 
decisions to manage public anxiety.
    I will leave the remainder of my testimony in the written 
form and be happy to answer any questions that you may have.
    [The prepared statement of Chief Schwartz follows:]



<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>



    
    Mr. Shays. Thank you very, very much.
    Chief Neuhard.

                STATEMENT OF MICHAEL P. NEUHARD

    Chief Neuhard. Thank you, Mr. Chairman. I will note that I 
have provided some lengthy testimony in writing, and I will 
summarize that very quickly here for you.
    Mr. Shays. Thank you very much.
    Chief Neuhard. Mr. Chairman, distinguished members of the 
subcommittee. I am Michael Neuhard, and I am the fire chief of 
the Fairfax County Fire and Rescue Department, which is located 
in the northern Virginia area of the National Capital Region. 
We appreciate this opportunity to provide you with a local 
perspective on anthrax detection and the problems associated 
with first responder activities during potential anthrax 
incidents.
    During the last 4 years, Fairfax County and other regional 
agencies have had the unfortunate occasion to respond to over 
1,000 potential anthrax incidents. As you are aware, we 
recently responded to a detection device activation at a 
Department of Defense facility located in Fairfax County, which 
occurred simultaneously with a potential anthrax incident at 
the Pentagon, Arlington County, VA.
    Our experience at these incidents shows that, at the most 
fundamental level, the question of determining if we are 
dealing with a biological agent in an accurate and timely 
manner remains elusive. We believe there are four areas 
relevant to this hearing in the anthrax detection chain which 
presents significant challenges during the first 72 hours of an 
incident.
    First is the current state of fixed detection systems being 
operated in local jurisdictions at government mail-handling 
facilities. Fixed mail-handling facilities are using different 
detection technologies with varying degrees of reliability. In 
many instances, the instance and type of device is not known to 
nor coordinated with local officials. Furthermore, these 
facilities may not even have technical support available for 
these detectors after normal business hours.
    On a positive note, a postal facility in Fairfax County has 
worked very diligently with officials to develop joint 
protocols for response to an activation of their biological 
detection system. Conversely, when the 911 call was received 
for the DOD facility on Leesburg Pike, first responders were 
not even aware that a detection device was located within the 
facility.
    The second issue is the lack of reliable field screening 
capabilities for first responders, as was noted by Chief 
Schwartz. None of the field test devices on the market today 
are endorsed by scientists or laboratories as being reliable, 
accurate and consistent. This prevents the first responders 
from having appropriate, technical information to support 
initial decisions in the field, and all of us know the 
consequences of that.
    The third issue is obtaining the laboratory results and 
ensuring that they are available for decisionmakers during an 
incident. Once field samples have been transported to a 
laboratory, local and State officials are not fully aware of 
nor included in the process. Many times and most of the time, 
our experience has been these have gone to Federal 
laboratories.
    During the recent simultaneous events, it was difficult to 
determine which location or sample, testing procedures or time 
lines the subject matter experts were referring to as they 
attempted to make decisions and articulate this to local and 
State representatives. This problem leads to local and State 
responders making decisions based on limited and sometimes 
unreliable information.
    Finally, the lack of confidence in the ability of the 
laboratories to produce timely, accurate and reliable analysis 
is troubling. Since emergency responders have limited ability 
to identify a potential biological agent in the field, they 
rely heavily on the testing laboratories for accurate and 
timely information.
    It is unconscionable that a laboratory can provide positive 
screening and culture test results for a biological agent that 
was not present. At a minimum, laboratories utilized for 
routine and incident specific samples should be certified in 
part of the laboratory response network. Additionally, initial 
test results should be available to decisionmakers within 4 to 
6 hours as opposed to the 12 to 15 hours indicated during 
recent events.
    It is imperative that Federal, State and local authorities 
partner in efforts to improve detection, screening and analysis 
of potential anthrax contamination. The Federal Government can 
help by insuring, first, that all stakeholders are at the table 
as we further refine these capabilities, the local, State and 
Federal levels together. Second, provide ample funding to 
continue research that enables reliable, consistent and timely 
detection, field screening and lab analysis.
    Third, require Federal agencies operating fixed detection 
systems in localities to coordinate with local first responders 
and public health officials. And, finally, ensure that Federal 
agencies ensure similar protocols across Federal agency lines 
in the detection and response to potential anthrax incidents.
    While the Federal Government must continue to provide 
leadership in the anthrax response arena, it must remember that 
when an incident strikes, it is the localities that would be 
impacted and challenged with the appropriate response. We must 
recognize this and accept this, and we must do everything 
possible to provide appropriate technical capabilities so we 
can answer as quickly and confidently as possible the question, 
do we have anthrax?
    Thank you.
    [The prepared statement of Chief Neuhard follows:]



<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Shays. Thank you, Chief Neuhard.
    Mr. Schaenman. Am I pronouncing your name correctly?

                 STATEMENT OF PHILIP SCHAENMAN

    Mr. Schaenman. Schaenman, yes. Thank you again and the 
members of the subcommittee for inviting me to this important 
hearing. I will give you a quick verbal summary of the written 
testimony. I am Philip Schaenman, president of the Tridata 
Division of System Planning Corp.
    We have been providing analytical services dealing with 
public safety for about 35 years. We have done over 50 after-
action reports for major public safety incidents. And we have 
evaluated public safety services at about 150 communities and 
40 Navy installations.
    About 2 weeks ago, State and local officials in Virginia, 
Maryland and D.C. voiced concerns about the information flow, 
as well as the science--as you have been talking about--during 
the suspected anthrax incidents. They wanted a rapid after-
action review of the State and local actions and information 
flow by an expert third party in parallel with the Federal 
studies that were being done of the time lines and what 
happened. And I got tagged with being the project manager. Here 
is a brief summary of the findings, focusing on the information 
flow rather than the science.
    Overall, the National Capital Region did much better than 
it would have been 5 years ago. Arlington and Fairfax County 
did extremely well in responding to the incidents, in 
communicating with each other and in sending information to the 
region, as Chief Schwartz said.
    The Commonwealth of Virginia was prepared to assist its 
counties. The State of Maryland was prepared and kept informed. 
D.C. government was prepared and played a direct role at the V 
Street facility. So the overall picture was good, but there 
were many communication problems identified. Most of them 
stemmed from the root cause of not having clear information 
about the status and findings of the anthrax tests.
    But in a sense, that's the homeland security version of the 
fog of war. You need to be able to deal with the uncertainty in 
these types of incidents.
    For one thing, there needs to be better protocols on who 
has responsibilities for keeping the region informed, beyond 
the jurisdictions directly involved. Should a county pass 
information to the National Capital Region or to the Department 
of Homeland Security for dissemination into the rest of the 
region.
    Mr. Shays. You have to move your mic back just a speck. 
Please just slide it back.
    Mr. Schaenman. Sorry.
    Mr. Shays. No need to apologize. You are doing great.
    Mr. Schaenman. So how should the information flow? Should 
it go from the State through the region, or should it go to DHS 
and then through the region? Should it go from office of 
emergency management to office of emergency management that are 
the hubs and in through the spokes, or should it be broadcast 
to all agencies simultaneously? Should it go public health to 
public health and fire to fire?
    Well the problem in these incidents, I went through all 
these channels. And it led to uncertainty as to what was the 
latest and most authoritative information at any given time, in 
part because the tests weren't clearly defined and time stamped 
as the information flowed across agencies.
    There were times when 80 people were on a conference call 
being updated without knowing what the source of the 
information was, whether that was the most recent information 
and whether they could ask questions or not, so they had little 
idea of the validity of the information at times.
    Another issue that needs guidance from the State and local 
chief executives is when they want to be informed about 
incidents that are not yet confirmed. There was hesitancy about 
passing information up the line, but generally good judgment.
    But people are concerned about the boy who cries wolf 
syndrome on the one hand and, on the other hand, keeping 
political leadership informed before they hear about it from 
CNN. A balance needs to be struck.
    There is also a need to more forthrightly inform the public 
on what is going on even in the face of uncertainty. It's 
probably better to say we have conflicting test information and 
trying to resolve it than delaying press releases all together, 
and that happened.
    There needs to be greater care in the use of English 
language and acronyms in emergency communications. We have been 
working the problem of interoperability of the hardware of 
communications, but there's an interoperability problem on the 
human side as well. For example, there was communication that 
it had set off an automatic alarm at Skyline Towers when it was 
in fact a person giving an alarm. And there's a big difference. 
There was a misunderstanding about whether a test was for the 
presence of anthrax spores or for the viability of anthrax 
spores, and that's a difference.
    DOD, several State and local agencies felt that DOD needed 
to better coordinate medical treatment decisions with their 
public health agencies, in this case Pentagon with Arlington 
County, but elsewhere in the Nation as well. And it affects 
people in the local jurisdiction.
    So those are just some of the key findings. We are going to 
have detailed time lines and findings from the point of view of 
all the major State and local government participants in a 
report that's forthcoming. I would be glad to answer questions.
    [The prepared statement of Mr. Schaenman follows:]




<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>



    
    Mr. Shays. Thank you.
    Mr. Jester.

                  STATEMENT OF JOHN N. JESTER

    Mr. Jester. Mr. Chairman, members of the subcommittee, 
thank you.
    My name is John Jester. I am the Director of the Pentagon 
Force Protection Agency. Thank you for inviting me to discuss 
the emergency response activities to the suspected anthrax 
contamination at the Pentagon's Defense Post Office and at a 
mail office in Skyline Tower 5.
    In addition to a brief summary of events, I also plan on 
sharing with the subcommittee lessons learned and actions taken 
since the event. Overall, I want to assure the subcommittee 
that the Pentagon is an equal partner with the Federal, State 
and local entities in protecting the health and safety of our 
employees and the surrounding communities.
    To briefly summarize the recent events, on Thursday, March 
10th, Vistronix, a U.S. Army contractor, screened mail entering 
the Defense Post Office over down-draft tables. Swab samples 
taken from the filters under the tables were collected and sent 
to the Commonwealth Biotechnology Inc. Laboratory, hereafter 
referred to as CBI Lab. Standard procedures call for the 
contractor to hold the mail in quarantine mail for 3 days until 
the lab reports negative results.
    At 4 p.m. on Friday, March 11, representatives from the CBI 
Lab informed the Vistronix site supervisor that the initial 
test result of Thursday's mail sample would be delayed due to a 
preliminary positive test result.
    The Vistronix supervisor did not inform DOD of this 
preliminary test result. Over the weekend, CBI performed a 
confirmation test on the sample. On Monday morning, March 14, 
6:15 a.m., Vistronix released Thursday's mail to the Defense 
Post Office for distribution. Three hours later, the CBI Lab 
informed the Vistronix supervisor that the test results from 
one of the samples from Friday's mail resulted in a positive 
response for anthrax.
    The Defense Post Office was notified of the positive test 
results, immediately shut down their facility and immediately 
notified the Pentagon Force Protection Agency. In the 2 hours 
that followed, we established a secure perimeter around the 
remote delivery facility, notified Arlington County and set up 
an instant command post integrating local and Federal emergency 
response efforts; 236 employees from the remote delivery 
facility were evacuated to a nearby vacant building until they 
could be briefed, tested and issued precautionary treatment, 
and offered counseling services.
    We coordinated with other Pentagon distribution offices to 
identify all possible recipients of the morning mail and 
deployed our HAZMAT teams to the sites for additional swab 
sample tests. Between 10 a.m. and 1 p.m., Pentagon Force 
Protection Agency notified State and local, Federal emergency 
response agencies of the potential biohazard incident through 
the Washington Area Warning System.
    By 1 p.m., the Centers for Disease Control and Prevention, 
the Homeland Security Operation Center and the Office of the 
U.S. Postmaster General were all notified. The Arlington County 
Fire Department arrived at the Pentagon 11:04 a.m., and the FBI 
was on the scene by 1 p.m.
    Over the next 3 days, Pentagon officials coordinated with 
local, State and Federal officials, health and law enforcement 
officials. At approximately 2 p.m., we were notified that a bio 
alarm was set up in a mail distribution office in Skyline 5. It 
was later determined that the room in question did not have a 
biosensor or bioalarm.
    The device was a biological air filtration hood, and the 
alarm was simply a red light indicating air flow restriction. 
All subsequent tests returned negative, and the Skyline Complex 
and the Remote Delivery Facility reopened on Thursday, March 
17th. By Thursday, March 17th, the DiLorenzo Clinic in the 
Pentagon tested more than 800 people through nasal swabs and 
provided 3 days of antibiotics.
    As in any emergency, there were actions that went very well 
and procedures that need to be improved. Our initial after-
action assessments identified some positive aspects of the 
collective Pentagon response to this incident. The remote 
delivery facility as designed kept potentially harmful 
substances isolated from the large Pentagon population.
    We immediately identified and screened potentially 
contaminated employees. Within 3 hours, our organic HAZMAT team 
conducted 130 tests of the mail room and other suspected areas.
    Not everything transpired as it should have. It took too 
long for the original contractor lab mail results to be 
processed, and the contractor staff failed to follow mail 
release protocols. Additionally, there was no way to confirm 
that all State, local and Federal agencies heard the Washington 
Area Warning System message. The event illustrated that 
incidents at high-profile symbolic Federal facilities become 
breaking news stories and are quickly perceived as national 
events.
    We have already taken major steps to address these issues. 
Since the suspected anthrax incident, Pentagon Force Protection 
Agency has assumed responsibility for the oversight of the mail 
screening process and testing the samples from filters at our 
Pentagon laboratory. The onsite lab provides 24-hour response 
for positive initial screening of multiple threat agents.
    The Pentagon Force Protection Agency will ensure that mail 
is properly quarantined until the Pentagon lab returns negative 
sample test results. Revised notifications, both interagency 
and external, are in place for future chem-bioevents. Our 
procedures for using the Washington Area Warning System now 
include a preamble with an emergency message stating the who, 
what, where and when of the event. We will ensure that a 
response is received from an appropriate agency such as DHS, 
FBI and local counties. In 30 to 45 seconds, the emergency 
message will be repeated.
    A thorough review and the assessment of the ability to 
response to and management of the incidents is being conducted. 
DOD will receive a draft after-action report in 21 days and a 
final report within 45 days. The Pentagon is fortunate to have 
an excellent working relationship with Arlington and Fairfax 
Counties' police and fire departments. These working 
relationships were tested and proven on September 11th and 
continue to improve as we participate in annual exercises.
    Mr. Chairman, this concludes my prepared remarks. Thank you 
for the opportunity to speak, and I will be happy to answer any 
questions.
    [The prepared statement of Mr. Jester follows:]


<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Shays. Thank you.
    We will start out with Ms. Norton. We are going to try to 
get at the bottom of what is still not clear to me as to where 
mistakes were made.
    You have you the floor for such time as you need it.
    Ms. Norton. Thank you very much, Mr. Chairman.
    Mr. Burrus, I am going to ask you to have somebody go with 
me to V Street. I am going to ask Mr. Day in the same way. You 
know, he laid it on the workers. We were able to--if you will 
forgive me, cross-examination that we are dealing with an 
unairconditioned facility. I think I just want to go there. It 
looks as though we did get a promise to deal with that 
situation. Very, very troubling.
    I would like to know from you whether this is the first 
time--were not V Street workers put on Cipro?
    Mr. Burrus. On which occasion?
    Ms. Norton. On this?
    Mr. Burrus. On the most recent one?
    Ms. Norton. Yes, on the most recent one.
    Mr. Burrus. Yes, they were offered Cipro.
    Ms. Norton. Was this the first time since the anthrax 
attack in 2001 that any postal workers in the United States 
have been on Cipro?
    Mr. Burrus. No, the employees at V Street. This is the 
second or third occasion since 2001. There have been other 
circumstances where those employees in that facility have been 
put on Cipro.
    Ms. Norton. Mr. Burrus, that is very troubling testimony to 
me. We know that at the time of the anthrax attack that Cipro 
was not a very nice medicine to have to take. We also know, if 
you keep taking something, it doesn't work, and yet, of course, 
we have heard from the last panel that there's no way to tell 
when there's a false positive, that is, simply saying something 
is negative doesn't make it negative.
    That's why you heard a lot of cross-examination by the 
chairman and me on that; your own testimony reinforces that. We 
are going to have to get to the bottom of that, particularly 
given your testimony that, in V Street, we have already had 
three times where people have had to take Cipro, and I 
understand that all of these are false positives.
    So, I mean, how many times are we going to expose workers 
to a very important, probably the only drug they could take, 
and when the real deal comes, and it's our job to see that it 
doesn't, then many of them would have been exposed over and 
over again to this antibiotic and perhaps it wouldn't work as 
well. That is very, very troubling.
    I want to move to Mr. Jester. Mr. Jester, is it your view 
that what we were dealing with here, we know we were dealing 
with a contractor. We know it was a noncertified contractor. So 
perhaps I ought to ask you why the Pentagon, of all places, was 
using a noncertified contractor. We had testimony in the prior 
panel--that this contractor was, ``outside of the Pentagon 
system.'' If you have a system, I assume that within your 
system they are certified. Is that true? Those who are within 
the Pentagon system are certified by CDC?
    Mr. Jester. We utilize the CDC protocols in our 
laboratories, but the laboratory, to answer your question--the 
laboratory, the CBI in Richmond, this contract was set up in 
November 2001, right after the incident on the Capitol, and the 
Pentagon quickly came to the conclusion they need to screen the 
mail, and they had a contract with Vistronix. Vistronix in turn 
subcontracted with CBI Laboratory.
    That process remained in place until this recent incident. 
We recognize there were some problems with that process.
    Ms. Norton. Well, subcontract--you didn't contract--there 
was a subcontract that resulted with this particular contractor 
being the laboratory?
    Mr. Jester. Yes.
    Ms. Norton. Not the contractor you in fact had employed?
    Mr. Jester. No, ma'am. The CBI laboratory was under 
contract to Vistronix who was under contract to the Army to 
screen the mail. And Vistronix screened the mail and sent their 
samples to the CBI Lab, so they were a subcontractor.
    Ms. Norton. I see.
    Mr. Jester. We recognize some problems with this. The Army 
had the American Academy of Sciences come in and take a look at 
the process and equipment. And they recognized there needed to 
be some changes. In fact, about 2 months before this event, the 
Army had asked my organization to take a look at the oversight 
of the screening process. And when we did that, we would then 
eliminate the CBI Lab and use our own laboratory.
    Ms. Norton. So are you any longer using this contractor or 
subcontractor to do lab work for the Pentagon?
    Mr. Jester. Pardon?
    Ms. Norton. Are you any longer using----
    Mr. Jester. No, ma'am.
    Ms. Norton. So you are no longer using----
    Mr. Jester. We stopped using it from the day of the 
incident.
    Ms. Norton. Are you using a CDC certified contractor?
    Mr. Jester. We are using a laboratory that we have with the 
Pentagon. The protocols that we use there are developed by the 
Army in consultation with CDC. The laboratory we have at the 
Pentagon is simply what I call a first alert laboratory. If we 
get a positive sample there, and we do have a PCR test there, 
we will immediately notify the FBI, and the FBI would take 
custody of that sample and then take it to the laboratory of 
their choice, which would be, I am sure, LRN laboratory.
    Ms. Norton. I guess that's all right, since you said, I 
understand, the Pentagon has perhaps the best experience with 
anthrax, because you have the military experience on which 
initially we relied. I will most certainly ask that--so when 
you said in consultation with CDC, I have to assume that CDC, 
that's the same thing as CDC certified. Because that 
consultation would not have their sign off, if it is not the 
functional equivalent of the certification?
    Mr. Jester. I would have to find out. I don't think there's 
a sample of approval per se. They did work with the CDC, the 
Army.
    Ms. Norton. They shouldn't be throwing their name around 
unless there is in fact something like that.
    Mr. Jester. Yes, ma'am.
    Ms. Norton. So I think you ought to get--if you would 
simply transmit to the chair by way of letter.
    Mr. Jester. Yes, ma'am.
    Ms. Norton. What the CDC consultation connotes so that we 
can translate it, do--does the lab use CDC reagents?
    Mr. Jester. Pardon?
    Ms. Norton. Does the lab use CDC certified reagents?
    Mr. Jester. No, ma'am.
    Ms. Norton. No? We use the Army agents, the Army's agents.
    Ms. Norton. Again, you know, that's going to be fine with 
me so long as two branches of government, the two agencies 
agree.
    Mr. Jester. Yes, ma'am.
    Ms. Norton. I have respect for the work that the Army and 
the military has done long before September 11th on anthrax, so 
just so we are talking about the same thing. But, again, I 
think that the chairman needs to have that understanding in 
writing.
    Let me tell you what really disturbs me and I guess the 
chairman when he opened this set of questions really got to the 
bottom of the core concern we have. We really are not 
interested, if you see how Mr. Shays goes at these hearings, 
which is not to ask a question, say got you and go on to the 
next one. We really are interested in finding out what happened 
particularly with respect to coordination so that this can kind 
of be a test that leads to remediation everywhere. We did not 
mean it as a test but it amounts to that.
    Now, in this region we have a National Capital Region 
Coordinator. I know it because it was my amendment to the bill 
that resulted in the National Capital Region Coordinator. When 
it got to the Senate it was even expanded. The feeling in both 
bodies was that this was the target region of the country, and 
while everybody else should have some kind of coordination in 
the States, since Federal facilities were located for the most 
part here, that the Department of Homeland Security should 
actually pay for the Coordinator.
    In all of this testimony, I have a hard time finding that 
Coordinator, and indeed, I can't figure out what the protocols 
are. So I'm going to try to break it down and not ask, you 
know, who struck John.
    Let me just ask a straight-forward question. Were there, 
let's leave aside what there are now because if there's 
something here now that was not there, you can tell me about 
that in answering this question. Were there, I will call them 
protocols, you can call them a list, for purposes of everybody 
understanding what I am talking about, that said once there is 
an incident, contact one, then contact two, then contact three, 
that kind of thing, the simple ABC's if you prefer of what to 
do in case there is an incident involving anthrax? Is there 
something that says immediately tell the National Capital 
Region Coordinator. Is there something that says go to the 
local police or fire, then go to X, Y?
    Remember we are dealing with somebody who may be anybody. 
There may be a worker who says there is some powder here, I 
don't know what to do. Well, is there a piece of paper that 
says every worker should go to his supervisor and the 
supervisor knows bingo, 1, 2, 3, 4, 5? All those people 
immediately know, then the information flows out and because 
the experts then know, the information then flows back as to 
what to do?
    If I could ask anybody who knows if there is anything 
written down that would tell a worker then or would tell a 
worker now what the steps are, let us say from 1 to 10 about 
who to notify or, if you like, what to do.
    Mr. Burrus. The Postal Service does have such information 
that is distributed to employees. The level of distribution is 
certainly dependent upon the managers in thousands of 
facilities across the country, but the real problem is we 
interact with all of the other agencies as well as private 
entities and everybody has a different protocol. There is no 
universal protocol. The Postal Service has its own. The 
Department of Defense or the Army, the Navy is not required to 
follow the Postal Service protocol. They have their own. So 
where the two intersect, as they differ, they differ. The 
Postmaster General, the U.S. Postal Service will follow his 
protocol, not that of the U.S. Army.
    Ms. Norton. But on an anthrax incident.
    Mr. Burrus. Yes, even with anthrax.
    Ms. Norton. Everybody has a postal facility.
    Mr. Burrus. Everybody suspects that if anthrax is 
identified that its origin--the initial suspicion is its origin 
is the U.S. Postal Service, particularly if it is discovered in 
a mailroom, and there are hundreds of thousands of mailrooms 
scattered in private entities. So if they discover anthrax in 
the mailroom, the immediate suspicion is that its origin was 
the U.S. Postal Service. That independent entity will follow 
their protocol and it will differ from what is followed by the 
U.S. Postal Service.
    So you have conflicting protocols. What happened in the 
Pentagon recently, the suspicion was it was a Postal Service 
initiated action. There were two different protocols that were 
in play and the media was in between.
    Ms. Norton. What protocols were in play?
    Mr. Burrus. The Postal Service.
    Ms. Norton. And who else?
    Mr. Burrus. The Department of Defense because the suspicion 
was the anthrax was identified as having not been initiated but 
identified in the Pentagon.
    Ms. Norton. Mr. Jester, was there anything in writing that 
indicated in this region what you should do in a Pentagon 
postal facility if there was a suspicion of anthrax in the 
facility? Was there anything in writing which I am calling a 
protocol, but it is anything in writing? You can call it what 
you want to.
    Mr. Jester. Yes, ma'am. We have what we call a concept of 
operations, CONOPS, and we have detailed concepts of operations 
both for chem, bio and radiological situations, and it details 
what you do in each of those events, what kinds of notification 
you make.
    Ms. Norton. Who is the first person you would notify in 
this region?
    Mr. Jester. Arlington County. They are our first responder. 
And then based on what we see we would be contacting the FBI.
    Ms. Norton. Who would be doing this contacting, the person 
in the facility?
    Mr. Jester. Our operations center. Let me back up a little 
bit. We train our employees in the building. We give them 
training. For example, we provide all of our employees with 
escape masks like they have here in the Capitol. To get that 
escape mask they must come to a training class where they are 
educated on the chemical, biological or radiological threat and 
what they should do. And they are also told on who they should 
contact. They contact our emergency number.
    We also train our employees on evacuation procedures. We 
also have an ability from our operations center to communicate 
to all 20,000 computers within a minute to say what is going on 
and what people should do.
    We exercise these procedures, these CONOPS that we have on 
the chemical, biological, radiological; we exercise these 
measures each year with Arlington County Fire Department. We 
have an exercise that's called ``Gallant Fox.'' So there are 
procedures set up for employees on who to contact and who we 
should contact.
    Ms. Norton. I'm with you so far as your emergency 
responders are concerned, but as I look at your testimony 
between 10 and 1 you say ``PFPA notified, local,'' the various 
parties. Then you say by 1 p.m. the Centers for Disease Control 
and Prevention, Homeland Security Operations, Postmaster 
General were all notified. That is between 10 and 1. By 1 that 
is 3 hours. I do not even see the National Capital Region 
Coordinator in here. Maybe somebody told him along the line. I 
do not see anybody who was responsible after the emergency 
responders were notified to then make sure that there was 
proper notification given all over, and in fact the Mayor of 
the District of Columbia and the county executives have all 
complained about confusion in response. And part of the problem 
I am having is I don't see that it has made any difference to 
have a Regional Coordinator paid by the Federal Government in 
this region, and I still don't know who is in charge of this 
operation once anthrax is suspected. There's no question if 
there's a fire, first call the fire department, and that is 
what you had here, but after that there may be something far 
larger going on and I am not clear from your testimony or the 
other testimony where it goes after the emergency responders 
are notified.
    Mr. Jester. Ma'am, what we do is we use what is called the 
Washington Area Warning System. It's an open telephone line. 
It's a system maintained by FEMA. When you pick up that 
telephone line and give a message, we gave it three times that 
day.
    Ms. Norton. That should mean everything in the whole region 
got it long before 1; that should mean instant notification if 
it's an open line.
    Mr. Jester. It was around 12, I don't know the exact time.
    Ms. Norton. Why did it take so long? If it was an open line 
why wasn't there an immediate response, Roger, or whatever you 
say.
    Mr. Jester. Our first issue is we're working with Arlington 
County. That's our first responder.
    Ms. Norton. I understand that. That's the first thing you 
have to do, and I will get to them in a minute. After that, 
since this may be an anthrax attack, there may be some reason 
to tell the Congress and the White House, there may be a reason 
to tell God knows who, I wouldn't know who, therefore I would 
want somebody in the Federal Government who knows who to know 
and all I'm trying to find out is after you call the emergency 
responders who should we look to for leadership on this issue 
so that everybody knows to relate to that person.
    Mr. Jester. We utilize the instant command system. We have 
a unified command. We follow the National Incident Management 
System on who is in charge of the event. The Washington warning 
system also goes to over 80 organizations.
    Ms. Norton. It was just pointed out, in your testimony, you 
say there is no way to confirm that all local, State and 
Federal agencies, this is what you've testified, heard the 
Washington Area Warning System message. So there's no way for 
them to say Roger, got you.
    Mr. Jester. There is no way of verifying.
    Ms. Norton. That isn't technology. That's what you could 
have done 100 years ago virtually. Mr. Jester, it is not you 
alone. We have a problem far larger than you. I'm just trying 
to figure out how it works.
    Chief Schwartz, did you want to clarify how this 
communicating worked?
    Chief Schwartz. A couple of points. One is that the 
National Capital Region Coordinator is not an operational 
position. While his role is to assist----
    Ms. Norton. I'm fully aware of that but for him not to 
know, what's the point? Let's get rid of him them.
    Chief Schwartz. I'm getting to that. The way that the 
system is supposed to work is that initial notification and 
response is made, and then the jurisdiction in which the 
incident is occurring establishes their emergency management 
system. They may open their emergency operations center.
    Ms. Norton. Say that again. Who establishes?
    Chief Schwartz. The local jurisdiction. In this case, 
originally Arlington. When Fairfax had their incident they did 
the same thing. They are opening their local emergency 
operation center. That becomes the conduit from the incident 
scene, through the local jurisdiction, and possibly, and in 
this case this was done, to the State. The State is notified of 
the incident. It has an awareness for what's going on. The 
State, if they feel the need to notify the Federal Government, 
they can do that. Normally that occurs when we are requesting 
additional resources, when we are requesting something that is 
not available.
    Ms. Norton. Chief Schwartz, you are dealing with how a 
local official would normally through the chain of command up 
to his Governor handle this matter. But what we in Congress 
have to worry about is that anthrax is not a local or State 
concern. Once you are talking about anthrax you are immediately 
talking about a major Federal concern. You did the right thing. 
In fact, if anything the reports about Fairfax and Arlington or 
even D.C., which wasn't as closely involved, were that they 
responded appropriately. But anthrax is a national concern. It 
involves a Federal matter. And I cannot yet figure out after 
you did your job, which was making sure, one, that you got 
there, and, two, that you located everybody who should have 
been notified in your jurisdiction. Still the Federal 
Government is over here someplace where all the information and 
knowledge about how to deal with anthrax is supposed to reside 
and I can't find out who is in charge.
    I don't know if it's DHS. I don't know if it's the 
Pentagon. I don't know if it's the National Capital Region 
Coordinator. I don't know if it's the Department of Homeland 
Security, somewhere in the bowels of that organization. I don't 
know if it is the Postal Service, which is a Federal agency. I 
don't know who Mr. Jester is supposed to relate to. He's just 
in one agency. And at this point I can't figure that any of you 
know as well.
    Chief Schwartz. The answer is it's the local authority. The 
Federal Government does not take control even of anthrax.
    Ms. Norton. But we are not talking about control. You see, 
I've got to make sure we understand what we're talking about.
    Chief Schwartz. Because the issue you're talking about is 
notification.
    Ms. Norton. I'm not talking about notification in the local 
or county sense.
    Chief Schwartz. I know but here's the point that I was 
going to make, and this touches on something that Mr. Jester 
just mentioned. There is no reliable system in the National 
Capital Region where a jurisdiction can make a notification 
about an incident and be assured that everybody who has a need 
to know in fact gets that information.
    Ms. Norton. That really is all I need to know. The fact is 
that Mr. Jester has testified that this Washington Area Warning 
System message open line was used. And yet he did not know, or 
he is not able to say in his testimony that such primary actors 
as the actual operation center, you are talking operation, he 
cannot say for sure. He can only say for sure that their 
operations center at Homeland Security knew by 1 p.m. We are 
talking about 10 a.m. when all of this began, whatever the 
local officials were doing. And all reports are they were 
doing--they handled their own internal protocols appropriately. 
What we can't understand is how the Federal Government was not 
itself coordinating its appropriate response.
    Mr. Schaenman, you have looked at this matter in terms of 
the actors who were involved. As I have indicated, I'm not 
concerned about the emergency response because they have tested 
and rehearsed and they are just there when there is an event. 
But once they get there we are talking about anthrax. What in 
the world are they going to do? Anthrax has to go some place to 
be verified. Somebody has to say, I'm in charge here, everybody 
relate to me. And I would be very interested in what you found 
and where you think the flaws were, who you think might have 
been in charge or should have been in charge and what you'd 
recommend.
    Mr. Schaenman. Your question actually raises a whole bunch 
of issues. It's not a single simple thing. As the chief was 
saying, the actual incident was managed very well. There was 
unified command. In the face of uncertainty, the hard issue 
here was was it or wasn't it anthrax. So that drove a whole lot 
of things.
    Ms. Norton. Let me stop you there. So when the two chiefs 
go and the question is was there or was there not anthrax, what 
can they do? What can they do? Was it or was it not anthrax? 
What can two chiefs doing their jobs do?
    Mr. Schaenman. I think what happened early in the process, 
and, chiefs, tell me if this wasn't true, is the public health, 
the county level public health authorities get notified and 
start talking to each other and making medical decisions.
    Ms. Norton. Did your men and women go to the site?
    Chief Schwartz. Yes. To the Pentagon, yes.
    Ms. Norton. When you got there what could you do?
    Chief Schwartz. We immediately, recognizing the situation, 
notified our Office of Emergency Management. They operate our 
emergency management system. They have the connections 
throughout the local government. They immediately notified our 
local Public Health, who has a direct and statutory 
relationship to State Public Health because there is no Federal 
Public Health.
    Ms. Norton. What did they do about the substance or the 
part of the facility where it was thought that anthrax was 
suspected? What could they do about that? Here is where I'm 
trying to see the relationship between the Federal Government 
and the State authorities.
    Chief Schwartz. What they're doing is they're working with 
the folks on the ground, in this case at the Pentagon and I 
presume at the Fairfax facility also. They're working with 
Federal law enforcement personnel.
    Ms. Norton. Do either Fairfax or Arlington have facilities 
for testing?
    Chief Schwartz. No, we rely----
    Ms. Norton. No matter what you can't test.
    Chief Schwartz. We have some minimal field testing 
capabilities to give us some indication as to what we may be 
dealing with. That was not necessary here although there were a 
number of those tests done.
    Ms. Norton. Let me go to Mr. Schaenman and then I will go 
to the chairman, who has been very gracious. The point I have 
been trying to establish is that making their very best, even 
heroic efforts, when it comes to anthrax, local emergency 
responders are at the mercy of somebody who can test to see if 
there is anthrax. I don't care how good they are, that is not 
their job. That is why I'm interested in the relationship 
between the local responders here, two counties that acted 
appropriately, and what looks to be the only entity that can 
get at whether or not we have a homeland security emergency. 
And Mr. Schaenman and I know Chief Neuhard also wanted to say 
something on that. So I would like your responses.
    Mr. Schaenman. The information flowed very fast, very 
early. NCR did know about it. NCR did participate in 
disseminating waves of information. It was not the only route.
    Ms. Norton. So who was in charge?
    Mr. Schaenman. So the people in charge of the incident, 
dealing with the incident were the local authorities.
    Ms. Norton. Here we go again. I know that. I've just 
established they can't do anything. They don't know what it is. 
They are doing their jobs. Who's in charge of everybody here? 
They're fine, so is everybody else fine. Mr. Jester has done 
what he's supposed to do. He said he's talked on his little 
phone and said hey out there, anthrax, anthrax, but nobody 
answers him back because that's not a part of the protocol. 
That's what I'm trying to find out. Who is in charge, who 
should be in protocol?
    Mr. Schaenman. There's one set of protocols that deal with 
disseminating the information about an emergency. There's a 
different set of protocols that deal with dealing with the 
action. It goes into the public health sector. The public 
health people who are alerted at the local, State and national 
level, it was going in waves. So lots of people are readied, 
resources were being readied to move drugs but until the 
incident gets beyond the local governments it doesn't----
    Ms. Norton. Who's in charge, Mr. Schaenman, who's in 
charge?
    Mr. Schaenman. The local agencies are in charge. I mean, 
the incident commanders are in charge. There's a medical answer 
also.
    Ms. Norton. Well, that's certainly not acceptable. It's not 
that your answer isn't acceptable. It's truthful, but it's not 
unacceptable to us that local authorities are in charge of a 
major homeland security national event.
    Yes, sir.
    Chief Neuhard. There are through the incident management 
system very clear lines of authority and through State law and 
Federal law. The problem is as that escalates, as we asked for 
increased resources, which we do. And in this case we would 
need resources, there are Federal authorities that have very 
specific authorities on that scene and they would come 
integrate with us and we ask them for assistance in certain 
areas.
    We had two different incidents here with two different sets 
of problems. The problem became that while we knew at the 
incident scene who the Federal representatives were and what 
they were doing and how they integrated with the system, as you 
moved away from the incident site and the sample is taken to 
the lab, we knew where it was going, and the scientists within 
the Federal Government and the agencies within the Federal 
Government became to bear on the problem, it then was a 
question by the localities.
    We know who the responsible agencies are here, but we've 
got a lot of people talking and confused with no single clear 
point of contact about where this information should come back 
to the locality. And you're exactly right, we are slaves to 
that and that is a problem.
    The incident management system provides the answer to that, 
but that assumes that the plans that are in place identify who 
the lead authorities are in that case. At the local level and 
the State level it says for the type of emergency who is 
supposed to be there. And the national response plan, if 
operated, is supposed to define that as well.
    Ms. Norton. Who does it say is supposed to be there? Who 
does it say is supposed to be the lead authority in this region 
in the event of an anthrax incident of the kind we had at the 
Pentagon, for example?
    Chief Neuhard. I cannot answer that clearly for you, Ms. 
Norton. It will have to be asked to Federal authorities.
    Ms. Norton. The chairman says why not. If you don't know, 
Chief Neuhard, since you clearly understand what is supposed to 
be at your level it is because there is not clarity at the 
Federal level about who is in charge. I mean, if we have 
established nothing else here today, we have established that 
there is nobody in charge when there is an anthrax event, that 
there is plenty of information flowing, and that really scares 
me because information flowing from multiple sources is as 
confusing and perhaps more confusing than no information, and I 
think the way it began, Mr. Jester, was the right way to begin. 
But it seems to me that little fixes here could help. It began 
apparently with you using this Washington Area Warning System 
message. That message could have been received not only by 
everybody and may have been but by, quote, whoever is in 
charge. But the first thing to know is how do you report back 
that you have gotten it and how do you know that whoever is in 
charge, this mystery person, has gotten it, so that we know 
that all of the action that is then supposed to take place is 
then taking place. I'm assured that at some point it was, but 
everybody reported confusion, and that confusion begins and 
ends with no point of responsibility and accountability for an 
anthrax attack in this region, and that is something that we've 
simply got to straighten out.
    Mr. Chairman, thank you very much.
    Mr. Shays. Before I go to staff to ask some questions, Mr. 
Jester, are you involved with the anthrax vaccine program?
    Mr. Jester. No, sir.
    Mr. Shays. So would the Force Protection Agency--define to 
me what the Director of the Pentagon Force Protection Agency 
means. You are in charge of the building?
    Mr. Jester. I'm in charge of the security for the Pentagon 
reservation and other DOD office buildings in the National 
Capital Region that are not military reservations; for example, 
leased commercial buildings around the metropolitan Washington 
area. We perform a function that is very similar to the U.S. 
Capitol Police at this location.
    Mr. Shays. So in the end are you agreeing with Ms. Norton 
that we really don't know who is in charge of anthrax?
    Mr. Jester. No, sir. We are all guided by the National 
Incident Management System, which establishes a process on who 
is in charge----
    Mr. Shays. If you don't agree then, don't tell me we all 
are. Tell me who is in charge.
    Mr. Jester. There is an incident commander. There is a 
process described in the National Incident Management System. 
It describes an incident.
    Mr. Shays. Is there a person with a name that is in charge 
overall? Who is that person? I see two heads shaking.
    Mr. Jester. It would depend on the nature of the incident. 
It is scenario driven, whether it is a law enforcement incident 
or whether it's a fire/rescue incident or whether it is a 
public health incident.
    Mr. Shays. Anthrax. We'll take anthrax. Who's in charge?
    Mr. Schaenman. The local public health director.
    Mr. Shays. I don't believe the local public health director 
can go into the Pentagon and take charge. I don't believe it.
    Chief Schwartz. And one of the things that the State and 
local after action report does point to is the fact that the 
public health dimensions; that is, the release of prophylaxis 
for those employees, was not well coordinated.
    Mr. Shays. You said ``and'' like you were going to give me 
some information. I said I don't believe that the public health 
director can in fact take charge, can take command in the 
Pentagon and you started to say ``and.'' What does ``and'' have 
to do with it? Are you agreeing or disagreeing that's true? Do 
you think the public health director can take charge? Can she 
tell Rumsfeld what to do?
    Chief Schwartz. No. But I'm saying by NIMS and by the 
National Response Plan she is supposed to be able to.
    Mr. Shays. OK. So in theory the national public health 
director has jurisdiction, except that we learn from Dr. 
Schafer that DOD has separate requirements and basically plays 
by separate rules. So what is the point of your telling me that 
the health director has jurisdiction and is in charge when in 
fact they haven't been in charge? They aren't in charge, and 
they probably never will be in charge.
    Chief Schwartz. Well, I think that things have changed a 
lot in the last couple of years, but I would also say with all 
due respect, sir, that's the purpose of these kinds of hearings 
is to get to the bottom of that and perhaps resolve some issues 
that we are unable to resolve.
    Mr. Shays. I basically view you as the good guy here in the 
sense that you are trying to help us sort that issue out, and I 
appreciate it. But it just seems to me we could just have 
someone without 30 minutes of questioning, if someone could say 
what it is and we don't have to do this kind of probing. I'm 
wondering why we have to do this kind of probing.
    The bottom line is nobody is in charge in essence or there 
is a real disagreement as to who's in charge or that 
everybody's in charge therefore nobody is in charge. I mean, 
that would start us in this process.
    Mr. Jester. From the standpoint of the Department of 
Defense, the Assistant Secretary of Defense for Health Affairs, 
Dr. Winkenwerder, was our immediate public official, and he's 
the one that made the decision. He contacted CDC right away to 
talk about what he was facing. He was facing a situation where 
he had a positive test even though it was flawed but it was not 
known at the time. He had mail that was there for 5 days and he 
had 236 employees that were very concerned for their safety. So 
he made that decision, he made the public health decision.
    Mr. Shays. Let's just take what you said, Dr. Winkenwerder, 
he basically notified CDC. Did he notify the health director?
    Mr. Jester. The local health director? Arlington County 
Public Health Director?
    Mr. Shays. I'm not going to help you out as to who that 
would be. Did he?
    Mr. Jester. He did not notify directly the Arlington County 
Health Director. He talked to them later in the day.
    Mr. Shays. Let's stop right there. Chief Schwartz, you are 
telling me who's in charge?
    Chief Schwartz. I'm telling you by statute in Virginia the 
local public health director has that authority, including on 
the Pentagon reservation. Now that did not happen in this 
incident, but that doesn't diminish the fact that is the law in 
the State of Virginia.
    Chief Neuhard. Mr. Chairman, I would say that in our 
incident in Leesburg Pike that did occur.
    Mr. Shays. What is that?
    Chief Neuhard. That did occur, where our Public Health 
Director was the incident commander, decided when that building 
was going to be opened again based on the information provided 
to her, decided whether prophylaxis was going to be given to 
other building occupants. Now if the DOD went beyond that with 
their people that was their business, but very clearly in that 
case it was clearly our Public Health Director that was in 
charge after our initial response.
    I would also say that in past histories where we have had 
chemical releases in buildings that have been occupied by 
Federal agencies we have taken control and command of those 
buildings. The problem comes when you get to a facility that is 
federally owned and not leased, such--in our case such as the 
CIA. Then it is a Federal reservation and we do support their 
operations.
    Mr. Shays. So in my lingo support means don't take control, 
you just help them?
    Chief Neuhard. In most cases that is correct, sir. If it is 
on their land under their control then we support their 
operations. If they are in a position where they are in State 
or local lands, we very clearly take command and control and 
introduce our particular response plans to that. The incident 
commander will be the lead. It's defined. And if I were at the 
CIA ultimately there would be a Federal person that would be 
the lead on that incident, even though I would be in a unified 
command structure and providing my services at that incident 
under the National Incident Management System.
    Ms. Norton. Mr. Chairman, that is fine and that is 
appropriate because we are talking about the difference between 
a Federal property where you are preempted if the Federal 
Government so desires. And this facility was just an ordinary 
office building, isn't that true, and there were other people 
in there even besides--the Pentagon facility was not a Federal 
facility, isn't that right? It was an office building?
    Chief Neuhard. Skyline was not a Federal facility.
    Ms. Norton. It was not a Federal facility. So you 
understand we are not talking about preempting the State 
government. Indeed, I have to tell you that the D.C. government 
here pretty much had a very central role here even though we 
were talking about a Federal facility. So nobody would preempt 
you in an ordinary office building in the State of Virginia. 
What concerns us is that, for example, as with September 11th, 
you could have these incidents breaking out all over, No. 1. 
And that is their modus operandi by the way. That is exactly 
what they try to do, what you know they did do on September 
11th, at least when they were using airplanes as weapons. 
That's the first thing.
    The second thing is that with a biological attack it is 
particularly important that at some level the Federal 
Government certify whether or not there has in fact--such an 
attack has occurred, every bit as much as if that attack had 
been on an office building owned by a developer in downtown 
Washington. At some point the Federal Government would have to 
assure us that a biological attack had or had not occurred. So 
really all that we are asking about when we say ``is not in 
charge,'' is not preempting the State officials who know better 
than the Federal officials could possibly know what to do in 
their own jurisdictions, but making sure that as with our 
questioning about certified laboratories, and so forth, with 
the prior panel that we are assured that we are not under 
attack, because if we are under attack Virginia may be the site 
but it is the United States of America that is under attack. 
Therefore, somebody in the Federal sector, particularly where 
all the information is--yes, there's a lot of information in 
public health departments, but that's why you pay taxes, for 
the Federal Government to come to grips with all of this.
    So I just wanted to make that distinction that I do not 
think the chairman or I are talking about preempting the State 
of Virginia and you acted absolutely appropriately, but we do 
think the Federal Government should have somehow understood its 
appropriate role.
    Mr. Shays. I am having trouble understanding who's on first 
and who's on second. I'm trying to sort out if there was a fire 
at the Pentagon, would the local fire department do that or 
would that be the Pentagon that would deal with the fire and 
then they would call in and who would have command.
    Chief Schwartz. Mr. Chairman, we can reply September 11th 
again and the attack on the Pentagon. It was the local 
authority that had all command and control for that incident.
    Mr. Shays. Do you agree with that?
    Mr. Jester. Yes, sir, he was the incident commander.
    Mr. Shays. See, I can almost understand it in reverse. I 
can almost understand that if the Pentagon had its own force 
they would be in charge because it is localized and they would 
ultimately, whatever consequence is localized. But I begin to 
be very uneasy if the Pentagon acts like China within the 
United States and there is a break out of SARS--I'm using that 
as somewhat an absurd example, but a biological problem that 
could go well beyond the confines of the Pentagon.
    Now I realize anthrax isn't contagious so it is not maybe 
the best analogy, but when it's a health issue I have a greater 
appreciation that it has to be more than the Pentagon that is 
involved, and what I am left with and I will leave this hearing 
with a weird feeling that we really don't know who's in charge 
and that's very unsettling to me. And no one here is basically 
telling me--in theory you are telling me, Chief, that it is the 
health director but in practice you said it isn't. So then I 
don't know who's in charge.
    Chief Schwartz. I have to say, Mr. Chairman, that I think 
that is only with regard to the Pentagon. This is the third 
incident of anthrax that we have experienced in the National 
Capital Region or the northern Virginia area since October 
2001, November 2003, and a couple of weeks ago at the Pentagon, 
and we learn more each time we deal with these. I would submit 
that there is no kind of response that we deal with in this 
country with regard to terrorism where a systems approach to 
dealing with it is more required than a biological incident. 
There are not--because what I will tell you is when the 
incident is confined to a specific site it is very easy to 
determine what command and control system, what set of 
resources you're going to apply to that, how you reach out for 
that next set of resources.
    In a biological incident that spans--that knows no 
jurisdictional boundaries, and even in an anthrax incident the 
ones we went through before caused difficulties because the 
people that work at the Pentagon work in Maryland, they work in 
the District and they work in Virginia.
    Mr. Shays. So anthrax could still be on their clothes and 
they could carry it out?
    Chief Schwartz. Anthrax could be in all those jurisdictions 
and three different public health authorities might have to 
manage their components of that incident.
    Mr. Shays. So let me just be clear. In this incident, the 
Health Director in the Pentagon did not take command?
    Chief Schwartz. Correct.
    Mr. Shays. And was notified in the beginning, others were?
    Chief Schwartz. Our Public Health Director was notified 
very early because again the system works such that the first 
responders arrive on the scene, recognize the problem, reach 
back through our communications mechanisms to activate our 
emergency management system, our emergency managers say to 
Public Health this involves you, this is not the traditional 
public safety responders by themselves, you're involved here.
    Mr. Jester. In our operations center we have the Arlington 
County Deputy Police Chief, we have the Public Health Office, 
and we have the Office of Emergency Management, all within our 
office.
    Mr. Shays. And who is in charge?
    Mr. Jester. From the public health standpoint? It was just 
the Secretary for Health Affairs. He made the decision on the 
issue of antibiotics. The decision about isolating the areas 
was done initially by my personnel. When the incident first 
occurs, we secure the location. We are in charge. And again it 
is scenario driven. We have many exercises and, like Jim said 
on September 11th, many times the Arlington County Fire 
Department is the incident commander, in fact in many cases are 
the incident commander. But in the National Response Plan it 
talks about incidents of national significance. And from our 
operation of this event, it was looked at as a local event. 
There was no decoration that we know of, that I know of where 
it was declared an incident of national significance, which 
would then have made DHS come in. If that declaration had been 
made, DHS would have had a leading control.
    Mr. Shays. We are not talking about DHS. We're talking the 
director of health in the area. And even then we did not have--
that person was not in charge. That's all.
    Each of us are doing--I mean, if I got blamed for all the 
inefficiencies of Congress because I'm a Member of Congress I 
would be pretty unhappy, and I am not blaming any of you but 
where I have a little bit of lack of patience it just seems we 
could have described this scenario a lot sooner and not taken 
so long.
    In the end we know there is a lack of knowledge of who is 
in charge, not in terms of theory but in practice, and I would 
also say even in theory I don't believe the Secretary of 
Defense believes that the Health Director is in charge. I don't 
believe that for a minute. I do not think there is anything 
that would indicate that DOD in general thinks that the Health 
Director is in charge. At any rate I don't even know where this 
hearing is going to go because I don't know if anybody is going 
to pay any attention. I think DOD is going to keep doing what 
it does.
    I will just say, Mr. Jester, my sense of concern just goes 
back to hearings years and years ago when we were asking about 
the anthrax vaccine program. And we said the way we were doing 
it was an experimental drug and the courts said yes, it was an 
experimental drug and stopped doing it, but we basically court-
martialed people. We saw people from the National Guard go out. 
And even though the court said this was illegal, the Pentagon 
basically said we do not care. We are going to keep going on.
    So there is a lack of credibility when I hear the word 
``anthrax,'' whether it is vaccines or who's in charge here. I 
just think DOD is going to do whatever the hell it wants, and I 
don't think it's going to be in our Nation's best interest.
    Mr. Jester. Sir, I think except for the situation of public 
health, we've had September 11th, we've had other exercises 
there, we've had other incidents there, and we've always 
followed the National Incident Management System. We do not 
want to operate independently because we need our partners in 
the local communities.
    Mr. Shays. I think it would be good to sit down with the 
Health Director.
    Mr. Jester. And we will. Like I said, there are things we 
felt that, well, there are some things we need to work on, and 
that's one of the areas that we have to have some discussions.
    Mr. Halloran. Dr. Statzenbach, I just want to ask if you 
heard the CDC testimony in the first panel. Did they describe 
any of the research that you are advocating in your testimony? 
Did you hear that any of it was underway or planned?
    Dr. Stetzenbach. It is my understanding that CDC is working 
with Dugway in an experimental room to do the very research 
that we published on a couple years ago.
    Mr. Halloran. Twenty years ago?
    Dr. Stetzenbach. No, no. We published a couple papers in 
2004 using an experimental room where we released an anthrax 
simulant and tested different sampling methods. They are now 
moving forward with that research in Dugway.
    Mr. Halloran. Replicating your research?
    Dr. Stetzenbach. I don't know if they're doing simulants or 
they're doing the actual anthrax. That's something we can't do 
in my laboratory. But our lab started off with some of that 
work. We're currently not doing it now.
    Mr. Halloran. Anything else that you heard that would 
meet--the research you're advocating, did you hear anything 
else that is planned or underway?
    Dr. Stetzenbach. There's a tremendous amount of research 
that needs to be done. As I was listening to the gentlemen 
here, it struck me that we can't lose sight of the fact that 
all of these different groups have a different focus. The first 
responders as they're called to a scene their question is, is 
there a threat. The public health officials want to know if 
there has been exposure and a resulting adverse human health 
effect. Law enforcement wants to know who did it and how can 
they gather their forensic evidence. And ultimately EPA wants 
to know what the scope of the contamination is so that they can 
get it cleaned up.
    Each of those different groups right now has a different 
sampling strategy and it is chaos when they all show up at the 
same place at the same time.
    Mr. Halloran. And I would suggest that each of them has 
different information needs in time. Whereas a fire is 
happening now, this thing moves across time and space as it 
were. You know things later that you would like to know now, 
which leads me to the next question to the chiefs. In terms of 
handheld assays or field tests for anthrax or biological 
agents, what do you know about their capabilities now? What do 
you feel now? What are their limitations and what realistically 
would you like them to be able to do?
    Chief Schwartz. A higher level of reliability is what we're 
looking for. But as I mentioned in my testimony that I want to 
be real clear with, we are not using a handheld assay or any 
kind of field testing. We are not using any handheld devices, 
any field testing to make clinical decisions. What we are 
looking to do is just manage the public anxiety when we're 
confronted with an incident like this, and when we're dealing 
with that we're dealing with it by doing a threat assessment 
and in consultation with our public health authorities.
    So we want higher levels of reliability but it is hard for 
me to imagine today a level of reliability or validity that 
would change that portion of the response. We're still going to 
be making tactical decisions as a part of our incident 
management structure and consulting with Public Health to make 
those clinical decisions.
    Chief Neuhard. As I mentioned in my testimony, we are very 
concerned about the reliability and the accuracy of what is 
available today on the market. We believe we need it and what 
we want from it is for us to say yes or no, it is present, and 
do that with probably 99 percent reliability.
    Dr. Stetzenbach. And those data are not out there.
    Chief Neuhard. And they're not there and that's the 
problem. But to say that they are not needed, we go through 
incidents, we maintain people onsites, we go through emergency 
actions over time because we don't have that answer and that 
prolongs the anxiety of the community. It prolongs the use of 
resources and we need a method that will allow us to do that. 
Now we keep getting closer. The PCR is the closest thing we've 
got today, but it's expensive. It requires a lot of training 
and a lot of use, and we're hoping that some day there is a 
better technology.
    Mr. Halloran. Just two more. Mr. Schaenman, who convened 
those conference calls with 80 people on them?
    Mr. Schaenman. Some of them were, they were convened by the 
Department of Homeland Security. NCR convened some of them. 
There were others that were convened by counties.
    Mr. Halloran. What was the point? What did they hope to 
achieve?
    Mr. Schaenman. I think they were trying to inform everybody 
where things stood. It wasn't just one call. It was a series of 
calls, and people were occupied with the call and it would be 
time for the next call. And they weren't using technology that 
allowed people to identify somebody who wanted to ask a 
question. It was a good hearted ``let's tell everybody what's 
going on.'' The pendulum has swung the other way, from 
everybody guarding information to too many people spreading 
information. And the kernel of the information not being clear 
as to what test are you talking about, what does it mean, 
what's the timestamp on it? Am I hearing the same thing three 
different ways? Is it a positive test? Is it a negative test? 
What's the interpretation?
    So there was almost overcommunication in these incidents. 
And people have called, all the State and local governments we 
interview have called, as Ms. Norton was suggesting, for a 
clearer protocol of who is responsible for sending the 
information beyond the county or jurisdiction of origin where 
it first starts.
    Mr. Halloran. Finally, Mr. Jester, it was described in an 
incident that local responders were coming up to a DOD facility 
and they did not know what technology was being used inside. 
They didn't even know that any technology was being used 
inside. Is that true elsewhere throughout this area? Can you 
tell us if it is getting better?
    Mr. Jester. You're talking about the Skyline 5 incident?
    Mr. Halloran. Yes.
    Mr. Jester. We didn't know there was technology that was 
being used. It was purchased by the tenants in that office. 
They used it, told no one except themselves, and so it confused 
Fairfax County. It confused us.
    Mr. Halloran. Was that the human error?
    Mr. Jester. I think what is happening is that offices are 
concerned for their safety and they see a lot of brochures and 
things around and salesmen go around and try to sell things to 
them, and they buy them probably carelessly. Hardware is no 
good without concept of operations. If there is a device in a 
building, you need to have someone who knows what they're 
doing, how to use it. There should be manuals there and they 
should be coordinated with their local responders.
    Mr. Halloran. Assuming for a moment that's the outlier, can 
you assure the committee that in DOD facilities not run by a 
contractor with technology that you don't know about, that you 
have made proper liaison with local officials so they know 
what's there when they get there?
    Mr. Jester. As far as we know, but what we're going to need 
to do is go out and survey. We have to go around to every 
office and ask the question, do you have a device here and if 
you do where is it, what is it, and in most cases tell them to 
shut it down until we can find out what they have and whether 
it is worthwhile.
    Mr. Halloran. Thank you.
    Mr. Shays. I would like to do a UC, and put into the record 
a letter and support materials from Assistant Chief Alan 
Vickery of Seattle, WA Fire Department. Without objection, so 
ordered.
    [The information referred to follows:]



<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Shays. I would like to thank Bill Womack of Mr. Davis's 
legislative staff for very valuable help preparing for this 
hearing.
    I would like to thank the patient and wide awake court 
reporters. Thank you very much.
    I would also like to thank Kristine Kathleen McElroy of my 
staff, who has worked on this hearing, and to say that by the 
time the court reporter gives us the transcript her name will 
be Kristine Kathleen Fiorentino. McElroy is going to be history 
and it will be Fiorentino. Congratulations on your wedding next 
week.
    Without any more important business to do, let us adjourn.
    [Whereupon, at 6:05 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]



<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>




                                 <all>

</pre></body></html>
